<html>
<title> - OVERSIGHT HEARING ON U.S. FOREST SERVICE STRATEGIC PLAN UNDER THE GOVERNMENT PERFORMANCE AND RESULTS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   OVERSIGHT HEARING ON U.S. FOREST SERVICE STRATEGIC PLAN UNDER THE 
                 GOVERNMENT PERFORMANCE AND RESULTS ACT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                     JULY 31, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-47

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-124 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Jeff Petrich, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 31, 1997.......................................     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2
        Letter to Mr. Lyons with further questions...............   122
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah, letter to Hon. Dan Glickman.................     3

Statement of Witnesses:
    Dombeck, Mike, letter to Subcommittee from...................     3
    Hill, Barry, Associate Director, Energy, Resources and 
      Science Issues, Resources, Community and Economic 
      Development Division, General Accounting Office, 
      Washington, DC.............................................     5
        Prepared statement of....................................   104
    Lyons, James R., Undersecretary, Natural Resources and the 
      Environment, United States Department of Agriculture, 
      Washington, DC.............................................     8
        Prepared statement of....................................    37

Additional material supplied:
    Circular A-11................................................    40
    Government Accounting Office Report..........................    69
    Koskinen, John A., prepared statement of.....................    61
    .............................................................



   OVERSIGHT HEARING ON U.S. FOREST SERVICE STRATEGIC PLAN UNDER THE 
                 GOVERNMENT PERFORMANCE AND RESULTS ACT

                              ----------                              


                        THURSDAY, JULY 31, 1997

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:11 a.m., in 
room 1324, Longworth House Office Building, Washington, DC, 
Hon. Helen Chenoweth (chair of the Subcommittee) presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order. The Subcommittee is meeting today to 
hear testimony on the Forest Service's strategic plan under the 
Government Performance and Results Act.
    Under rule 4[g] of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and the 
Ranking Minority Member, and this will also allow us to hear 
from our witnesses sooner and help Members keep to their 
schedules. Therefore, if other Members have statements, they 
can be included in the record under unanimous consent.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Today, the Subcommittee will evaluate the 
Forest Service's draft GPRA strategic plan. This Government 
Performance and Results Act was passed by Congress with broad 
bipartisan support, and under this act, all Federal agencies 
must prepare 5-year strategic plans in consultation with 
Congress and with input from stakeholders and others who are 
interested in the plan.
    This hearing constitutes one important step in the GPRA 
consultation process. It is my hope that we will have a 
meaningful dialog today on both the content and the process 
that the agency used in developing its May, 1997, draft.
    I assure you the Subcommittee would like to work closely 
with the Forest Service as it completes its plan before the 
September 30 deadline, and I understand the Forest Service's 
1995 draft RPA program is the basis for the GPRA strategic 
plan. The draft program was the subject of oversight by the 
Subcommittee on National Parks, Forests, and Lands in the 104th 
Congress.
    At that time, the Subcommittee and I expressed a number of 
concerns with the goals outlined in the draft RPA program, yet 
the agency has retained those same goals without even 
acknowledging our concerns with the RPA draft.
    I have a more complete statement which I would like to 
submit for the record that further explains my concerns with 
the Forest Service's draft strategic plan. In addition, I would 
like to submit two letters for the record which explain my 
concerns with the agency's goals as they are described in the 
draft RPA program.
    I encourage you to read these letters which are attached to 
my statement in the Members' folders.
    Today, we have two witnesses. I have asked Barry Hill and 
Jim Lyons to answer several questions regarding the Forest 
Service's strategic plan. Gentlemen, I greatly appreciate your 
willingness to testify today so that we may gain a better 
understanding of the Forest Service's strategic plan. I look 
forward to your testimony and your answers to our questions.
    [The prepared statement of Hon. Helen Chenoweth follows:]

  Statement of the Hon. Helen Chenoweth, a Representative in Congress 
                        from the State of Idaho

    Today the Subcommittee will evaluate the Forest Service's 
portion of the Department of Agriculture's Draft Strategic 
Plan, which has been prepared to comply with the Government 
Performance and Results Act. This act was passed by Congress 
with broad bipartisan support, before being signed by President 
Clinton in 1993. Under the Results Act, all Federal agencies 
are required to prepare five-year strategic plans in 
consultation with Congress and with input from stakeholders and 
others who are interested in the plan.
    I understand the Forest Service plan is now being rewritten 
to address concerns that have been raised by the Senate 
Agriculture Committee. Nonetheless, I have asked Barry Hill 
with the General Accounting Office and Under Secretary of 
Agriculture Jim Lyons to join us today to inform the 
Subcommittee about the Forest Service's plan.
    This hearing constitutes one important step in the 
consultation process required by the Results Act. While the 
deadline for completion of the final plan is fast approaching, 
it is my hope that we will have a meaningful dialog today on 
both the content and the process that the agency used in 
developing its May 1997 draft. I assure you that the 
Subcommittee would like to work more closely with the agency as 
it completes its plan before the statutory September 30 
deadline.
    During the 104th Congress, the Subcommittee on National 
Parks, Forests and Lands held an oversight hearing on the 
Forest Service's draft 1995 RPA Program. The Forest Service 
tells us that the RPA Program, which is a long-range strategic 
plan prepared under the Renewable Resources Planning Act of 
1974, was used as the basis for the current draft GPRA 
strategic plan.
    However, in January 1996 the Chairmen of the House 
Subcommittee on National Parks, Forests and Lands and the 
Senate Subcommittee on Forests and Public Land Management wrote 
the Secretary of Agriculture expressing serious concerns with 
the goals articulated in the draft 1995 Program. They explained 
that the draft RPA Program represents an abandonment of the 
agency's longstanding statutory multiple use and sustained 
yield principles. I agreed with their assessment that they 
could not endorse the goals outlined in the draft, nor could 
they ratify any forthcoming statement of policy based on such a 
Program.
    The Forest Service has yet to issue a new draft or final 
RPA Program. In May of this year, Chief Dombeck wrote that he 
is delaying completion of the 1995 program for another 10 
months. Instead, the Forest Service is conducting additional 
analyses related to a number of different issues. Without 
objection, I would like to submit a copy of both letters for 
the record.
    Given the uncertain nature of the 1995 RPA Program, I am 
disturbed by the agency's reliance on that draft as the basis 
for the GPRA strategic plan. Furthermore, it appears that the 
Forest Service did not consult with us earlier on the GPRA plan 
because they believe the RPA planning process provided adequate 
public and Congressional involvement. I disagree with this 
view, and I hope the Secretary of Agriculture and the Chief 
will take seriously our desire to work with the Forest Service 
on the continuing development of the GPRA plan.
    Today we have two witnesses. I have asked Barry Hill, 
Associate Director of GAO, to provide us with a brief summary 
of the Results Act, including the requirements for developing 
strategic plans. He will then offer GAO's observations on the 
Forest Service's draft strategic plan. Specifically, I asked 
him to explain how well the draft plan addresses accounting, 
financial management, decision making and accountability 
problems identified previously by the General Accounting 
Office. A number of these issues have been addressed in some 
detail in GAO's recent report on Forest Service Decisionmaking.
    In addition, I have asked Under Secretary Lyons to explain: 
(1) how well the Forest Service's draft addresses the six 
components required by the GPRA; (2) whether the mission and 
goals described in the draft plan are clearly stated and 
consistent with the agency's statutory authorities; (3) the 
strategies proposed for achieving the mission and goals; (4) 
the resources needed to accomplish each goal; and (5) whether 
the draft plan provides adequate, quantifiable performance 
measures.
    Gentlemen, I greatly appreciate you both for coming before 
the Subcommittee today so that we may gain a better 
understanding of the Forest Service's strategic plan. I look 
forward to your testimony and to your answers to these six 
questions and any other questions the Members may have for you.
                                ------                                

                              Hon. James V. Hansen,
                                            Washington, DC,
                                                  January 18, 1997.
Mr. Dan Glickman,
Secretary, U.S. Department of Agriculture,
Independence Ave.,
Washington, DC
Dear Secretary Glickman:
    Although our Subcommittees have had only a brief opportunity to 
meet with your staff to discuss the Forest Service's draft 1995 
Resources Planning Act (RPA) Program, we would like to offer our own 
initial comments and concerns with the proposed Program. We expect that 
additional questions and concerns may come up as a result of 
yesterday's staff briefing on the draft, and we will encourage Members 
to submit their additional comments directly to you.
    In general, the draft RPA Program represents an abandonment of both 
the multiple use, sustained yield principles that have guided the 
Forest Service, and the Agency's commitment to active management of the 
national forests to maintain and improve the resources that Congress 
has entrusted to your charge. You should know now that we will neither 
endorse the goals or program of management contained in the draft, nor 
ratify any forthcoming statement of policy based on such a Program.
    The Executive Summary of the draft 1995 Program indicates that 
``The 1995 RPA Program reflects a significant change in the way the 
Forest Service considers and manages natural resources.'' It also 
states, ``Ecosystem management is the means by which stewards of 
America's forests and rangelands can reach the goal of sustainable 
management by the year 2000.'' Additional information provided in the 
summary and the draft Program strongly suggests that the change to 
``ecosystem management,'' as proposed by the Forest Service, will 
require Agency managers, planners, and field personnel to abandon the 
Agency's statutory multiple use goals and long-held sustained yield 
management practices in favor of new policies which will not meet the 
requirements of the National Forest Management Act, the Multiple-Use 
Sustained-Yield Act, and a number of other laws.
    We cannot condone this shift in policy. While it is appropriate for 
the Forest Service to develop practices and policies that better enable 
the Agency to fulfill its current statutory mandates, it has no 
authorization to develop entirely new direction for land management. 
Our reading of the draft Program is that, as a practical matter, it 
abandons the multiple use and sustained yield philosophy in favor of a 
custodial management style that will ultimately diminish the ecological 
integrity of the resources that Congress has entrusted to the Agency.
    Equally troubling is the evidence that the Forest Service intends 
to change its direction for national forest management despite the 
lengthy and costly efforts that have been made over the past 20 years 
to implement the RPA and the National Forest Management Act of 1976. In 
fact, much of the direction described in the draft 1995 Program is in 
direct conflict with the 123 adopted land management plans that the 
Agency has developed, approved, and periodically amended with 
unprecedented public involvement and at unprecedented cost to U.S. 
citizens.
    In addition to the above overall concerns, it appears that the 
draft 1995 RPA Program will do little to: (1) address the future near- 
and long-term needs of the Nation for renewable resources despite, for 
example, the fact that the national forests hold nearly half of the 
nation's inventory of softwood sawtimber; (2) improve the condition of 
the national forests, despite declining forest health and increasing 
risk of cat-

astrophic fire in many areas; or (3) provide new roaded recreation 
opportunities for the public, even though studies have shown that 
demand for roaded recreation is increasing at a greater rate than for 
any other type of recreation on the national forests.
    The draft Program clearly indicates in Appendix F that the largest 
shortages in recreation supply will be in ``dispersed recreation sites 
for day-hiking, wildlife observation, and sightseeing.'' These are 
activities that require roaded access. Instead, the draft Program 
promotes the creation of additional set-asides for unroaded, unmanaged 
purposes, thereby further reducing opportunities to provide for the 
responsible production of renewable natural resources, worsening the 
shortage of roaded recreation opportunities, and preventing management 
activities needed to improve forest conditions. To take just one 
renewable resource as an example, we start from a premise that, at a 
time when the U.S. produces one-fourth of the industrial timber 
harvested in the world and consumes one-third of the world's 
production, it is irresponsible for the Forest Service to develop a 
program that will diminish our capacity to produce our own resource 
needs with a woefully inadequate justification and without a complete 
analysis of alternative supply sources.
    If the U.S. is going to responsibly achieve the President's goal 
for sustainable management by the year 2000, and meet the needs of our 
citizens in 2000 and beyond, we must have a Program for management of 
our forest and rangeland resources that will promote active and 
sensitive management, not simply passive and custodial protection, on 
the lands under the responsibility of the U.S. Forest Service. To meet 
this goal, consistent with current legal requirements, the final 1995 
Program will require substantial changes to address the above concerns.
    The 1974 Act requires a specific congressional response to the 
final RPA Program and Statement of Policy. Specifically, the Act 
provides the Congress with 90 days in session to either approve, 
reject, or modify the Statement of Policy. Your current schedule will 
not afford this Congress such an opportunity, because by the time you 
issue the final ``1995'' Program in early October (more than a year and 
a half overdue), Congress will be close to adjournment. This, more than 
anything else, troubles us greatly. Therefore, we would like to discuss 
this problem in the very near future. We will contact you shortly to 
pursue this further.
            Sincerely,
                                           James V. Hansen,
                                                          Chairman,
                                              House Subcommittee on
                                  National Parks, Forests and Lands
                                               Larry Craig,
                           Chairman, Senate Subcommittee on Forests
                                         and Public Land Management
                                 ______
                                 
Dear Sir/Madam:
    During the past year, we have used your comments and suggestions to 
develop our strategic plan for the future. I am delaying the completion 
of this plan. the Forest and Rangeland Renewable Resources Planning Act 
(RPA) Program, for approximately 10 months to ensure that it fully 
reflects the most appropriate paths and priorities to take care of the 
land and to provide its many benefits for the American people. During 
this period, we will conduct additional analysts related to a number of 
important issues.
    In the brief time since my appointment in January, I have expressed 
my commitment to ``collaborative stewardship'' of the Nation's forests 
and rangelands. Your involvement in the development of the RPA Program 
is reflective of exactly what I have in mind. I believe our efforts 
will lead to wider agreement about the priorities of the Forest Service 
in managing the 191 million acres of the National Forest System, 
cooperating with State and private forest owners, developing scientific 
information, and working with other nations.
    Planning for the future is a continuous and important task. Thank 
you for your interest in the future direction of the Forest Service.
            Sincerely,
                                              Mike Dombeck,
                                                              Chief

    Mrs. Chenoweth. Since the Ranking Minority Member is not 
here, I would like to ask Mr. Barry Hill, the Associate 
Director of Energy Resources and Science Issues, Resources, 
Community and Economic Development Division of the General 
Accounting Office, to please come forward.
    Mr. Lyons, I would like for you to come up also and be on 
the same panel. We will swear everybody in at once.
    Mr. Pandolfi, I understand that you are chief of staff for 
Mr. Dombeck, right?
    Mr. Pandolfi. Yes.
    Mrs. Chenoweth. Mr. Hill, you have with you?
    Mr. Hill. I have with me to my immediate left, Charlie 
Cotton, and to his left, Charlie Egan, who both have been 
intimately involved in the work that GAO has done in this area.
    Mrs. Chenoweth. Both you, Mr. Lyons and Mr. Hill, will be 
relying on these gentlemen for certain answers, right?
    Mr. Hill. Yes.
    Mrs. Chenoweth. I wonder if you could all stand so that we 
can swear you in. Please raise your right hands.
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and statements made will be 
the whole truth and nothing but the truth so help you God?
    Let me remind the witnesses that under our Committee rules, 
they must limit their oral statements to 5 minutes, but that 
their entire statement will appear in the record. We will also 
allow the entire panel to testify before questioning the 
witnesses.
    The chairman now recognizes Barry Hill to testify. Mr. 
Hill.

STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, ENERGY, RESOURCES 
     AND SCIENCE ISSUES, RESOURCES, COMMUNITY AND ECONOMIC 
DEVELOPMENT DIVISION, GENERAL ACCOUNTING OFFICE, WASHINGTON, DC

    Mr. Hill. Thank you, Madame Chairman and Members of the 
Subcommittee. We are pleased to be here today to discuss the 
implementation of the Results Act and the Forest Service, and 
if I may, I would like to submit my formal statement for the 
record and briefly summarize its contents.
    Mrs. Chenoweth. Thank you.
    Mr. Hill. My testimony today is based primarily on two 
efforts, one dealing with a report we issued earlier this year 
on the Forest Service decisionmaking process and most recently, 
our review of the May, 1997, draft plan prepared by the Forest 
Service under the Results Act.
    Let me start by noting that the Results Act is landmark 
legislation intended to approve Federal program effectiveness 
and accountability by promoting a new focus on results, service 
quality, and customer satisfaction.
    If implemented successfully within the Forest Service, it 
should help break an existing cycle of inefficiency and 
ineffectiveness of decisionmaking by strengthening 
accountability for performance and results.
    To accomplish its objectives, the Results Act establishes a 
process to set goals and to measure progress. Specifically, the 
act requires executive departments and agencies to prepare 
multi-year strategic plans that include long-term strategic 
goals for all major functions in operations, annual performance 
plans that contain measures to gauge performance toward meeting 
both strategic and annual goals, and annual reports that 
compare performance against the goals.
    To begin the process, the Department of Agriculture 
submitted a draft strategic plan to the Congress last May. 
Agriculture's plan includes a department-wide strategic 
overview as well as 30 component plans including one for the 
Forest Service.
    Our review of the Forest Service's draft plan identified 
concerns with both the process the agency used to develop the 
plan as well as its substance. Process concerns included the 
apparent lack of coordination with other Federal agencies, both 
within and outside of Agriculture when developing goals and 
objectives.
    In addition, the agency's plan falls short of adequately 
addressing critical components required by the Results Act, 
especially in identifying key external factors that could 
affect achievement of the plan's strategic goals and 
objectives.
    However, the plan's greatest weakness is its failure to 
articulate the Forest Service's positions on several 
controversial issues. Specifically, the plan does not address 
the Forest Service's rationale for emphasizing some more than 
other legislatively mandated uses of the national forests, the 
agency's logic underlying its approach to managing natural 
resources, and the likely effects of its policy choices on the 
types, levels, and mixes of uses on its lands.
    Let me take a moment to explain why it is important that 
the agency's final plan addresses these issues.
    The strategic goals in the Forest Service's plan form the 
starting point and foundation for holding the agency 
accountable for its performance. Consequently, these goals are 
critical to successfully implementing the act within the 
agency. However, since agreement has not been reached on the 
strategic goals in the Forest Service's plan, the agency cannot 
begin to derive the benefits anticipated from implementing the 
act.
    The lack of agreement on the Forest Service's strategic 
goals reflects the controversy, both inside and outside the 
agency, over which uses to emphasize under the agency's broad, 
multiple-use and sustained yield mandate and which management 
approach can best ensure the long-term sustainability of 
legislatively mandated uses of the national forests.
    The strategic goals in the Forest Service's plan reflect an 
ongoing shift in emphasis under the agency's broad multiple-use 
and sustained yield mandate from consumption to conservation, 
and a significant change in the way the Forest Service 
considers and manages natural resources from managing primarily 
along administrative boundaries to managing ecosystems.
    The increasing emphasis on conservation and ecosystem 
management conflicts with the agency's bolder emphasis on 
producing timber and other commodities, and will likely 
constrain future uses, such as recreation, on national forests.
    The Forest Service has been aware for some time of the 
controversy surrounding its increasing emphasis on conservation 
and ecosystem management and the likely effects of these 
changes in its management of the types, levels, and mixes of 
legislatively mandated uses on the national forests.
    In fact, these issues surfaced, as you mentioned in your 
opening statement, immediately after the Forest Service 
conducted a brief-

ing in January 1996 on a draft strategic plan which included 
the same strategic goals as the agency's May, 1997, plan.
    The day after the briefing, as you mentioned, the chairman 
of this Subcommittee's predecessor and the chairman of the 
counterpart Senate subcommittee wrote to the Secretary of 
Agriculture stating, among other things, that the justification 
for the plan was ``woefully inadequate,'' and the plan 
represented an abandonment of the agency's multiple-use and 
sustained yield principles.
    Moreover, the chairmen stated that they would not endorse 
the goals contained in the draft plan and the final plan would 
require substantial changes to address their concerns.
    However, the May, 1997, plan does less than the prior draft 
to articulate the rationale for the Forest Service's strategic 
goals and management approach. Furthermore, the May, 1997, plan 
is silent on the likely effects of the goals and management 
approach on the legislatively mandated multiple uses on the 
national forests.
    The May plan captures the Forest Service's broad use and 
sustained yield mandate, stating that the agency's mission is 
to ``achieve quality land management under sustainable 
multiple-use management concepts to meet the diverse needs of 
the land and people.''
    Basically, this mission allows the agency to be all things 
to all people. However, the reality is that the Forest Service 
is increasingly unable to avoid, resolve, or mitigate conflicts 
among competing uses on national forests by separating them 
among areas and over time.
    Consequently, the agency must make hard policy choices 
concerning which of the competing multiple uses to emphasize 
and how to resolve conflicts or make choices among these uses 
on its lands.
    The multiple use laws which guide the management of the 
nation's forests provide little guidance for the Forest Service 
in resolving conflicts among competing uses. Often, the 
emphasis that the agency gives to particular uses responds to 
factors supplementing these acts, such as requirements in 
planning and environmental laws and their judicial 
interpretations.
    For example, section 7 of the Endangered Species Act 
represents a congressional design to give greater priority to 
the protection of endangered and threatened species than to the 
current primary missions of the Forest Service and other 
Federal agencies. The strategic goals included in the Forest 
Service's plan reflect hard policy choices that the agency has 
made among competing uses. As a result, the goals are 
controversial.
    Had the Forest Service not only made the hard choices but 
also articulated its rationale for making them and made clear 
their consequences, it would have better equipped the Congress 
to understand its decisions and to identify legislative changes 
that are needed to clarify or modify the Congress' intent and 
expectations.
    We recognize that Agriculture's final plan which will 
include the Forest Service's plan is not due to the Congress 
and OMB until the end of September, and that the Results Act 
anticipates that the final plan will be continually refined as 
future planning cycles occur.
    We also recognize that a strategic plan is dynamic, and 
that the Forest Service, Agriculture, OMB, and congressional 
staff are continuing the process to revise the draft.
    However, given both the importance of strategic goals to 
the successful implementation of the act and the disagreement 
over the goals in the Forest Service's plan, we believe that 
the agency should have taken the opportunity presented by the 
act to consult with the Congress to better articulate its 
positions on these controversial issues.
    Specifically, it should have presented clear linkages 
between its stated goals and objectives and its relevant 
statutory authorities.
    Madame Chairman, this concludes my prepared statement, and 
may I say that my staff and I look forward to working with you 
and Members of your Subcommittee as you continue to provide 
oversight of forests and forest health issues and programs.
    We would be more than happy to respond to any questions 
that you or the members might have.
    [Circular Number A-11 may be found at end of hearing.]
    [Statement of John A. Koskinen may be found at end of 
hearing.]
    [Government Accounting Office report may be found at end of 
hearing.]
    [Statement of Barry T. Hill may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you. I think now the chair will 
recognize Mr. Lyons for his testimony.

STATEMENT OF JAMES R. LYONS, UNDERSECRETARY, NATURAL RESOURCES 
 AND THE ENVIRONMENT, UNITED STATES DEPARTMENT OF AGRICULTURE, 
                         WASHINGTON, DC

    Mr. Lyons. Thank you very much. Thank you, Madame Chairman. 
I appreciate the opportunity to appear before you and the 
Subcommittee today to discuss our GPRA efforts, and as you 
noted, I am accompanied by Francis Pandolfi, who is acting 
special assistant to Chief Dombeck of the Forest Service.
    As requested in your letter of invitation, I will attempt 
to describe what GPRA requires, the Forest Service mission and 
statutory authorities, our strategic goals, and resources 
needed to accomplish the GPRA plan.
    GPRA requires, of course, that Federal agencies submit a 
strategic plan to Congress and to the Office of Management and 
Budget by the end of this fiscal year. The strategic plan for 
the Forest Service, as for other agencies, will cover the major 
functions of the agency and contain six items, a mission 
statement; goals and objectives; a description of how the goals 
and objectives will be achieved; a description of the 
relationship between the performance, goals, and the annual 
performance plan and the goals and the objectives of the 
strategic plan; identification of key factors external to the 
agency and beyond its control that could significantly affect 
achievement of goals and objectives; and a description of 
program evaluations used in the strategic plan and a schedule 
for future program evaluations.
    The Forest Service mission is to work collaboratively to 
promote the health of the land and to meet the diverse needs of 
all Americans. The phrase caring for the land and serving 
people expresses the spirit of that mission.
    Implicit is the agency's collaboration with partners in 
serving as stewards of the nation's forests and rangelands. The 
Forest Service provides leadership in the management, 
protection and use of the nation's forests and rangelands. Its 
operating philosophy is ecosystem management, where the quality 
of the environment is maintained and enhanced to meet the 
current and future needs of all humans.
    The agency uses that approach to provide sustained, 
renewable resources such as water, forage, wildlife, wood, and 
recreation opportunities.
    Statutes that provide the legislative mandate for Forest 
Service programs fall into one of three major categories. The 
first is specific authority for Forest Service activities 
contained in statutes like the Multiple-Use Sustained Yield 
Act, the National Forest Management Act, the Forest and 
Rangeland Renewable Resources Research Act, the International 
Forest Cooperative Act, the 1990 and 1996 Farm Bills.
    Second are more broadly applicable environmental 
requirements such as NEPA and the Clean Water Act and its 
amendments to the Endangered Species Act, and then the third 
category of legislative mandates are statutes that allocate 
national forest system lands to specific management regimes or 
purposes, such as the Wilderness Act or the Wild and Scenic 
Rivers Act, which of course Congress played a significant role 
in effecting.
    As requested during congressional consultation, the Forest 
Service is revising its GPRA strategic plan to integrate the 
programs and authorities established by these laws and to 
clearly articulate where they apply.
    Under the Forest and Rangeland Renewable Resources Planning 
Act of 1974, or RPA, we prepare an assessment of renewable 
resources on all lands every 10 years and a recommended program 
for Forest Service activities every 5 years. Since 1974, the 
Forest Service has prepared the RPA program documents in an 
annual report of its accomplishments which is called the report 
of the Forest Service. The update in 1993 of the RPA assessment 
and the draft 1995 recommended program form the core of the 
agency's GPRA strategic plan.
    The 1993 update of the RPA assessment contains projects of 
resource use over the next several decades and identifies 
resource situations that are potentially acceptable, 
deteriorating, or serious and forms an underpinning for the 
strategic plan that we have developed.
    One of the strengths of using the RPA draft program as the 
basis for our strategic plan was the significant amount of 
public involvement that was a part of the development of RPA. 
Two national focus group meetings were held at the beginning of 
the process. These meetings provided a forum for the early 
identification of issues.
    In 1995 and again, in 1996, the most recent draft RPA 
program was available for public comment. The Forest Service 
held six regional listening sessions during the public comment 
period as well as a series of briefings for Members of Congress 
and others in Washington, DC. In fact, we received over 1,500 
comments on the draft program.
    In addition, the Forest Service participated in two 
oversight hearings, one which you referenced, Madame Chairman.
    The public has had access to the latest version of the 
draft plan through the Internet, and in addition, the Forest 
Service has consulted with Members of the House Agriculture 
Committee, of this Committee, and the Interior and Related 
Agencies Appropriations Subcommittee as well as the relevant 
committees in the Senate.
    The Forest Service has two mission-derived goals and one 
management goal as a part of our strategic plan. These goals 
are to ensure sustainable ecosystems, provide multiple benefits 
for people within the capability of ecosystems, and improve 
organizational effectiveness through management initiatives. 
Each of these strategic goals have objectives focused on 
quantifiable outcomes for a three to 5-year period, and I have 
a display with me, Madame Chairman, that highlights those 
specific goals and outcomes. Let me put that up.
    It is an ongoing challenge for the Forest Service and land 
management agencies to develop outcomes which measure the 
health of the land, and we are actively engaged in efforts to 
develop those quantifiable measures.
    Interagency collaboration is occurring to develop common 
goals and performance measures. Regional ecosystem assessments 
that have occurred in the Sierra Nevadas, the Pacific 
Northwest, and the Columbia River Basin will help to establish 
baseline data for results. The Natural Resources Performance 
Measures Forum, which the Forest Service participates in, is 
another effort underway to try and put together those 
meaningful measures.
    The resource conditions identified in the RPA assessment 
provided a focus for strategic goals and objectives in the GPRA 
strategic plan. Although ways of measuring resource needs are 
still being developed, considerable investments will be needed 
to ensure sustainable ecosystems and to meet appropriate levels 
of demand for uses, goods, services, and information.
    Financial resources will come from a variety of sources 
including, of course, appropriations, permanent and trust 
funds, contributions from partners, fees such as we are 
collecting now under our recreation fee demo program, and cost 
savings from new technology and re-engineering of our work 
processes to reduce redundancy and improve efficiency.
    Based on consultation with Congress, the Forest Service is 
revising its GPRA strategic plan. The final plan will 
incorporate some changes that Congress has requested, including 
explicit language linking the laws to the agency's mission; 
address long-term objectives for the agency's major functions; 
identification of key tasks and baseline information needed; 
linkage of strategic goals and objectives to performance goals 
in the annual performance plan; identification of key factors 
external to the Forest Service that could have an impact; and 
last, a description of how program evaluations will be used to 
refine strategic goals.
    Madame Chairman, I would say in summary that we have found 
the GPRA to be an extremely valuable tool in helping to 
identify a clear set of goals and objectives to provide us the 
mechanism to better measure and hold accountable the managers 
within the Forest Service for achieving those goals and 
outcomes.
    We look forward to working with you and other Members of 
the Subcommittee as we move forward with the GPRA strategic 
plan, and we will be happy to answer any questions you may have 
this morning.
    [The prepared statement of James R. Lyons may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Lyons. I would like to 
recognize Mr. Doolittle for opening questions.
    Mr. Doolittle. Thank you. In the strategic plan for the 
USDA, it is stated that there are two goals that are of 
particular importance to the Forest Service stakeholders. The 
first is to enhance the economic safety net for farmers and 
ranchers.
    I just wondered why loggers or forest product mill owners 
and others who depend on the national forest system for their 
livelihood were not included in that strategic goal. Are they 
second-class citizens or was that just an unintentional 
oversight, or what is the story there?
    Mr. Lyons. I suppose I should answer that. I certainly 
would emphasize the fact that we are concerned about the 
incomes and the economic stability of all those that reside in 
rural communities, including loggers and mill operators, as 
well as others who realize their economic wellbeing from the 
national forests or from forests in general, so I would suggest 
that you not read into that that we meant to exclude them.
    We probably should state it more clearly that that is in 
fact one of our goals.
    Mr. Doolittle. I think that would be good to amend your 
plan to reflect that.
    It is my understanding that we have annually four times the 
amount of new product grown on forests than we are harvesting, 
and we know these forests are choking with dead and dying 
trees. They are also choking with understory and with trees 
that are in dire need of being thinned.
    I just wonder in light of what the harvest plans are, if 
you could comment, Mr. Lyons, or the gentlemen that are with 
you, how do you plan on dealing with this?
    Mr. Lyons. As you know, Congressman, from our recent visit 
this past weekend to Tahoe that we face a tremendous challenge. 
The challenge is to improve forest health and do so in a way 
that protects other resources and in essence sustains the 
production of all the goods and services that come from the 
national forests.
    We attempt to achieve that balance through the work that is 
done on individual forests and developed through specific 
forest plans involving the effect on communities and the public 
in making those decisions.
    But the challenge nevertheless exists to try and maintain 
production across a wide spectrum of goods and services, and 
although forest growth wood supply may be increasing, we are at 
the same time trying to ensure that as we produce sustainable 
timber, we are addressing those other resource conditions and 
needs.
    For example, in the Tahoe Basin, water quality would be a 
consideration which serves as a constraint in some places, but 
restoring forest health through increased thinning and 
reintroduction of prescribed fire becomes a goal that we seek 
to achieve.
    I think that is how we attempt to strive to achieve that 
balance and also capitalize on the opportunities that exist 
through things like increased wood production.
    Mr. Doolittle. As I understood the comments of even 
Secretary Babbitt up there at Tahoe last weekend, Tahoe is past 
the point right now of really being able to use prescribed fire 
until adequate thinning has been done first. Did I understand 
his comments correctly?
    Mr. Lyons. That is correct. In many places, that is true.
    Mr. Doolittle. You have such a terrible fuel load buildup 
that a prescribed fire would pose too great a risk to the 
surrounding trees and to the lake ultimately.
    What is the timetable, in your mind or as you understand 
it, for dealing with Tahoe? When would that aggressive thinning 
operation be completed, do you think?
    Mr. Lyons. Being completed is a hard question to answer. I 
can tell you that we are committed within the next 90 days per 
the President's comments to put together and announce an 
aggressive strategy, and the additional funds that we committed 
to in that particular region would allow us to treat 3,000 
acres where we are treating now only a few hundred, but that is 
a large basin.
    Mr. Doolittle. I was going to say, what is the total amount 
of acreage that needs to be treated?
    Mr. Lyons. I don't have that figure before me, but I can 
tell you it is much more than simply 3,000 acres. The challenge 
there is obtaining the resources to be able to move even more 
aggressively than we are now.
    Mr. Doolittle. I understand that much, if not all, of that 
thinning will be pretty much done with helicopter logging. Is 
that your understanding?
    Mr. Lyons. I don't know if that is necessarily the case, 
because a lot of mechanical thinning can be done. It is the 
function of slopes and soil stability, and that will be 
determined on the ground.
    The economics of harvesting the dead and dying material in 
there could have a big impact on whether or not helicopter 
logging is a feasible alternative.
    Mr. Doolittle. You brought up that issue. It has been a 
problem getting the dead and dying timber out, not just in 
Tahoe but in general, while it still has commercial value. That 
is something that is of concern to me, because then we hear all 
our friends over here when it comes time to fund the roads 
program tell us about how we have below-cost timber sales. To 
me, it is sort of a self-fulfilling prophecy.
    There wouldn't be below-cost timber sales if they could be 
obtained economically and in a timely fashion, and I wonder if 
you would care to comment about that.
    Mr. Lyons. Well, we have below-cost timber sales. We have 
quite a few below-cost timber sales, but the truth of the 
matter is that we have forests that are in a deteriorating 
condition throughout much of the west, not just in California, 
but in Montana and Idaho and other places.
    I would, and I know Chief Dombeck agrees, characterize our 
need as a need to make investments in improving forest health, 
and in some instances, those investments will not pay off imme-

diately in terms of a return to the treasury, but the payoff 
may be longer term in terms of improved resource condition, 
improved production, or reduced wildfire risk.
    It is much more prudent to spend $1,000,000 improving the 
health of several thousand acres of forest than it is 
$1,000,000 a day to fight a wildfire in that same area, and I 
think that is the way we view the investments that we are 
attempting to make in improving resource condition.
    Mr. Doolittle. Do you have an estimate, Mr. Lyons, for all 
the forests you have jurisdiction over how much money is needed 
to accomplish the necessary fuel reduction?
    Mr. Lyons. I do not. I would have to provide that 
information for the record.
    Mr. Doolittle. I would appreciate if you would do that, and 
when you do that, give us, if you can, the money, the people 
involved, the other resources involved in accomplishing that. I 
would like to see a time line.
    We all just came from Tahoe, I realize, this last weekend, 
but I don't know how many thousands of acres we are talking 
about there in Tahoe. I assume it is many times 3,000 acres, 
and yet it appears to me that it would be very difficult to 
accomplish just that little area in any short amount of time, 
and the whole Sierra Nevada range is overcrowded like that, and 
furthermore, not just the Sierra Nevadas, but really 
throughout, as you observed, much of the west.
    I marvel at what is going to happen as we are annually 
growing four times as much wood product as we are harvesting, 
and this keeps compounding year after year after year, how we 
will ever--if we embarked upon a full scale effort today, a 
logging effort and ramped up for that, I just don't see how we 
would ever catch up with it. Am I missing something there? Is 
it not as dire as that? I just wondered how you perceived this.
    Mr. Lyons. I think in some situations, it is urgent that we 
make investments in the short term. It is a mix of treatments 
that are necessary, as you pointed out, and lots of fuel 
treatments are necessary to reduce the amount of material on 
the ground and then prescribed fire needs to be reintroduced.
    In other places, it is stabilizing stream banks and 
improving watersheds because of pasture impacts.
    There is a considerable investment that needs to be made in 
the natural resources estate, if you will, that we are 
attempting to quantify. However, given budget constraints and 
other concerns, we are trying to be prudent where we make those 
investments.
    Tahoe would be a good example. The investments we will make 
in thinning and fuel treatment there will be focused initially 
on the rural/urban interface, on those areas near population 
centers so we can create a buffer, not unlike the concepts that 
have been promoted by the Quincy Library Group and their 
strategic fuel zones which is part of the legislation that you 
all helped to move through the House.
    If we had unlimited resources, that would be marvelous, but 
recognizing that we don't, we have to be prudent about where we 
make those investments, and we will be strategic, but certainly 
the needs, not only for thinning and fuel treatment but for 
investments in resource stability, even investments in the 
recreation estate far exceed our resources at the present time, 
which is why we are looking for new and innovative ways to 
finance these projects.
    Mr. Doolittle. If I may, Madame Chairman, I will quickly 
ask this last question, but it sort of relates to Mr. Lyons' 
last comments.
    The draft contends that the Forest Service has supported 
communities through the maintenance of timber harvest levels, 
and to me, that is just ludicrous on its face representing 
areas myself where I have seen what has happened in recent 
years.
    As I understand it, and if you disagree with this, please 
tell me or provide for the record, the Forest Service has not 
maintained offers for sale or harvest levels at all.
    In fact, since 1990, I understand the levels have dropped 
by 65 percent, and over 300 mills have closed in the northwest. 
I guess my question in addition to raising those points is, why 
does the Forest Service continue to cause undue hardship on 
hundreds of rural communities by only offering 50 percent of 
what could be sustainably harvested?
    Mr. Lyons. I think the key question there is what is 
sustainable, and unfortunately, prior harvest levels are not 
sustainable when one takes into consideration our multiple-use 
mandate and the requirement we have under existing law to 
sustain the production of all goods and services from the 
national forest. That is one of the reasons harvest levels have 
declined in various parts of the country.
    One of the issues we faced early on in this Administration 
was the uncertainty associated with harvest levels, and the 
Pacific Northwest was the first area where we had to tackle 
that question. We had injunctions that shut down harvests 
because of concern about impacts on certain habitats and fish 
and wildlife species.
    We put together a plan that provides certainty, provides a 
sustainable level of harvest, and we have moved forward 
aggressively to ensure that we can sustain production at that 
level and protect those other resources.
    That is the balance and the tradeoff we seek to strike in 
putting together plans, and as we will move forward with new 
forest plans, of course, we will have to do this all over again 
in terms of looking at the specific needs for communities.
    You recognize, I know, Congressman, because I have been in 
your part of the country, that community needs are changing as 
well. Communities are becoming less dependent on one forest 
product, if you will, timber, and more dependent on multiple 
products. We see that in communities throughout the west where 
other needs and other issues are being addressed, whether it is 
scenic quality that serves as an incentive for a company to 
come into a community, or it is recreation and tourism as 
another base to support the economy of a community, and it is 
that diversity that we need to achieve.
    We are no longer focused just on one outcome, timber, in 
putting communities in a position where they are going to 
respond to the ups and downs of the markets and demands and 
international markets and other things we can't affect, but we 
are trying to respond to all the needs that communities are 
identifying, and more and more, it is that diverse mix, and we 
see it across the landscape.
    Our role is basically to ensure that we can help 
communities realize whatever their goals are economically, and 
we are not making a predetermined outcome that timber is what 
every community needs to be involved in.
    Mr. Doolittle. I don't want to argue with you about this, 
but in fact, you are making predetermined outcomes when you 
force the 65-percent reduction in the harvest levels.
    Sure, they are going to turn to tourism and recreation. 
That doesn't amount to anything compared to the high-paying 
jobs in manufacturing.
    Tourism and recreation is great if that is all you have, 
but it shouldn't be the mainstay of communities, and Madame 
Chair, maybe you will bring this out later on in the hearing, 
but it just seems to me that we are choking with overcrowding 
of the forests and at the same time, we have had dramatic 
reductions in the levels of harvests.
    I don't see how we would ever catch up if we had a full-
scale effort to ramp up again that we have let it get so far 
ahead of us.
    I am trying to understand, Mr. Lyons. You in your own 
testimony indicate that these are problems, but to me, the 
solutions being offered don't begin to address the severity of 
the problem or offer any hope of ever catching up.
    Even for as high a priority area as Lake Tahoe which is at 
high risk for catastrophic fire, which when that happens, that 
will much more severely impact the lake than the threats 
presently posed from existing sources, and I just wonder if 
even Lake Tahoe, we can only talk about addressing 3,000 acres, 
what are we going to do with the hundreds of millions of acres 
of national forest lands that aren't getting that level of 
attention?
    Mr. Lyons. I would only reiterate that we are going to do 
everything we can with the resources we have to identify those 
priority needs and again, it is a matter of striking a balance 
in terms of the investments we make.
    It is a matter of making prudent use of the dollars we need 
to treat 3,000 acres in Tahoe while at the same time dealing 
with erosion from an existing road network, much of which is no 
longer used, to trying to deal with watershed improvements that 
are critical, to trying to maintain campgrounds and trails 
which are critical to the economy of that region.
    That is what we attempt to do on a forest-by-forest basis, 
to strike that balance and make sure we make investments that 
are going to help protect those resources.
    Again, we do not have unlimited resources, so we have to 
make prudent use of what we have, make the best investments we 
can to try and protect the integrity of those resources.
    Mr. Doolittle. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Doolittle. We will return 
for another round of questioning, if you desire.
    The chair now recognizes Mr. Hill.
    Mr. Hill of Montana. Thank you, Madame Chairman. Mr. Lyons, 
the GAO report was particularly critical of the decisionmaking 
process that the Forest Service uses and the decentralized man-

agement structure within the Forest Service, and certainly, I 
think any person who lives in a State with national forests, 
just a casual observer would notice that it doesn't seem that 
you can get decisions made and that you can get them made in a 
timely fashion and make those decisions stick.
    The criticism is that you can't even get together on what 
your goals ought to be. My observation would be, and I found it 
astounding that in your strategic plan, you are setting as a 
benchmark, as a goal, that you will establish a benchmark for 
the condition of the forest for the year 2001.
    Aside from that, tell me what you are going to do to 
streamline the decisionmaking process within the Forest 
Service.
    Mr. Lyons. Congressman, let me--I am going to ask Francis 
to address some of the management decisionmaking process 
improvements that we need to make, and I concur with that part 
of the GAO report, that we certainly need to improve mechanisms 
by which we make decisions.
    Mr. Hill of Montana. That is not identified, though, as a 
goal in the strategic plan in any fashion.
    Mr. Lyons. Well, I think it is part of our increasing 
organizational effectiveness, but I want to address the issue 
you just raised in passing, which was that you said we have 
difficulty identifying or agreeing our goals and objectives, 
and we don't even have baseline data.
    Truth be told, we don't have adequate baseline data for 
many of the management activities we undertake in the national 
forests, and we are scrambling to gather those baseline data so 
that we have a framework within which we can measure our 
managers' performance.
    In many respects, what we have done is, we have taken the 
resources we have over time and we have invested them in 
producing goods and services, primarily timber, and we haven't 
invested a great deal in the basic data bases we need to ensure 
that we can understand how what we are doing is changing 
resource conditions and trends and improving or impacting our 
ability to meet public demand for those goods and services over 
time.
    That is the reason we have done ecosystem assessments, 
regional assessments like the Columbia River Basin assessment, 
so we have those baseline data.
    I am sure you would agree if you were managing a business, 
the first thing you would need to know is the status of the 
business and the health of the business. You need to know what 
your demand is, you need to know supplies, you need to know the 
quality of the goods and services you are producing. You need 
to understand your customers' impressions of those goods and 
supplies.
    I would agree with you, and that is some of the baseline 
data we are trying to put together right now. It is ironic that 
we are doing it now.
    Mr. Hill of Montana. But it is 2 years now. We started this 
process 2 years ago, trying to develop a plan, and frankly, I 
think that is a fair length of time.
    The question I really want you to address is the question 
about streamlining the process, because even bring a timber 
sale forward or developing a modification to a management plan 
on oil and gas production, I don't care what it is, the time it 
takes for you to go through the process is--in many instances, 
we have resources that are deteriorating while you are trying 
to go through the process.
    Mr. Lyons. Let me answer that quickly, and I am going to 
let Francis get into the details, but having those baseline 
data will improve our efficiency and time limits, because every 
time we have to make a decision like that, we have to go out 
and gather new data, and that is why it is so critical that we 
have the baseline data to start from.
    Let me let Francis talk about the process question that you 
raised.
    Mr. Hill of Montana. Thank you.
    Mr. Pandolfi. Thank you. Congressman Hill, I would address 
your question about streamlining the process by talking about 
accountability in the Forest Service and the lack of it.
    This is brand new to me. I have been in the private sector 
for 30 years, and if it ever took me 2 years to accomplish 
something in the corporations I have run, much less 2 months, 
probably I wouldn't be here today. I would have another job.
    The problem, as I see it, is that we simply don't have good 
accountability, and that is why projects take so long and 
people change and then they start all up again, and so on and 
so forth.
    The question is, how are we going to achieve 
accountability.
    Mr. Hill of Montana. In essence, what you are saying is 
that you are reinventing the wheel every time you are trying to 
do a project?
    Mr. Pandolfi. Yes, sure. I will give you a perfect example 
of something I ran into this week where we have been working 
with a consultant for 4 years to determine what kind of a 
computer system we ought to have in one of our departments, and 
it has cost us $800,000 thus far to do this.
    I asked the consultant, I said, you know, you can get a 
full education at Harvard University and have the summers off 
to boot in this period of time, and still you haven't got an 
answer for us, and he said, well, the problem is that we have 
gone through--five people have sat in the director's chair in 
this department in the period I have been here, and there have 
been five contracting officers and so on and so forth.
    There is always an excuse. There is always a reason why we 
can't get it done, because who is in charge? The problem is 
that we tend to work in teams in the Forest Service, and I 
suppose that is true throughout a lot of the government, and 
oftentimes, for example, we don't put somebody in charge of the 
team, so who do you go and ask the question to?
    There are a lot of very fundamental things that can be done 
here to improve accountability. I will just run through two or 
three quickly for you.
    First of all, we define tasks in the Forest Service using a 
five-page performance description. Now, if it takes five pages 
to describe the work you are supposed to do, the chances are 
that at the end of the day, you don't even remember what is on 
the five pages.
    Mr. Hill of Montana. So this organization is task-oriented 
instead of result-oriented is what you are saying?
    Mr. Pandolfi. Yes, and what, Congressman, we have prepared 
now, which we are going to start to discuss with our senior 
managers, within the next couple of weeks, is task descriptions 
which consist of five or six bullet points.
    You should be able to explain what a person does in five or 
six simple sentences. We are starting with that.
    If you do that, then the next thing that happens is you can 
avoid duplication between people. If you can avoid duplication, 
then someone is accountable.
    Right now, it is not clear who is accountable, because the 
job descriptions are all overlapping.
    Mr. Hill of Montana. Would you say that that is purposeful? 
I have had some experience within the private sector in trying 
to bring planning to the public sector, and one of the things I 
discovered was is that many times the structure of the 
organization is intended to defuse accountability rather than 
to focus accountability. In that way, people don't have to feel 
responsible.
    Do you think that that has been part of the focus, the 
culture of this organization?
    Mr. Pandolfi. I don't think it is any different in the 
Forest Service than it is any other place in government would 
be my guess, but the fact is that that is the way it is, and 
people accept that in government.
    I have read performance evaluations of people that I know 
are not doing a good job, and you would think they walked on 
water because there is always something in a five-page 
performance description that you can comment on that they did 
and probably did OK on.
    Mr. Hill of Montana. I would like Mr. Hill to comment on 
that question and on the Forest Service's response.
    Mr. Hill. Well, there were a lot of questions that were 
raised. Let me try to sort through this.
    First of all, accountability certainly is a key problem 
that the agency has. The report that we issued earlier pointed 
out that there were some additional major problems that the 
Service was having that would have to be fixed in order to 
improve the efficiency and effectiveness of it.
    We have talked about the lack of agreement on the missions 
and priorities. There is also the problem of interagency issues 
that basically transcend the Forest Service boundaries, Federal 
land management agencies and the State agencies working 
together to resolve problems on a broader area.
    There is also the problem of right now what seems to be 
reconciling differences among many different laws and statutes 
that the Forest Service is subject to.
    Let me get back to the----
    Mr. Hill of Montana. Are those irreconcilable or is it just 
that the Forest Service hasn't been able to do it, in your 
opinion?
    Mr. Hill. I would hope that they are reconcilable, but I 
think they are going to take a lot of work on the Forest 
Service's part and the other Federal land management agencies, 
and it may even require some congressional action once they 
sort through it, but it does need to be sorted through, and I 
think, hopefully, what I heard today in Mr. Lyons' statement is 
that that is part of what they are going to build into their 
revised plan that should be coming in a few months.
    I would like to talk a little bit about the accountability 
issue, because that is really a key one, and that is the one 
that you seem to be focusing on. That really is a problem in 
the Forest Service, and it is a cultural problem in the 
organization.
    There is just a general indifference toward accountability 
and I like to describe it as there is almost a dangerous 
formula here.
    You have an organization that is highly decentralized and 
it needs to be highly decentralized. I think each of these 
forests have to be managed based upon their unique 
circumstances and needs of each forest.
    You also have what recently occurred, an increase in the 
flexibility to shift funds within the Forest Service when the 
Congress revised their budgeting process and condensed some of 
their accounts, giving them greater flexibility in terms of 
shifting funds within the agency toward different efforts.
    You have what we see as a lack of sufficient accountability 
for expenditures and performance.
    When you add all those together, you have accountability 
problems, and you have waste, and you have situations where the 
managers out there are not being held accountable for bringing 
home projects on time, within cost, and in fact are rewarded 
for not doing so because when they overrun a budget or 
overspill a timeframe, they go to Congress and basically ask 
for additional time or authorizations to make a timber sale 
happen or to make something happen like in the Tahoe situation.
    It is basically not a pretty picture, and it is going to be 
a difficult one to overcome. We are somewhat optimistic that 
the Results Act really is the latest tool and a really good 
tool, by the way, for breaking this cycle and instilling a 
greater degree of accountability within the agency.
    Mr. Hill of Montana. Madame Chair, could I just follow 
along with one additional question?
    Mrs. Chenoweth. Yes, please do.
    Mr. Hill of Montana. In order for a strategic plan to be 
successful, they really have to be bottom-up in my view. In 
other words, if you are going to build a plan for the whole 
Forest Service, it ought to be built forest-by-forest.
    Did that occur in the development of this plan, in your 
judgment, or was this a top-down plan?
    Mr. Hill. Are you asking that question of me?
    Mr. Hill of Montana. Yes, I am.
    Mr. Hill. I don't know. Obviously, there was information 
from both ways. I think Mr. Lyons would be in a better position 
to really describe how the process worked in terms of pulling 
the plan together.
    Certainly, you need input from the bottom up, but you need 
direction from the top down. Accountability comes from the top 
down, so hopefully, they are getting information from both 
directions, from the bottom up and the top down, and I think 
that would be the key to a successful plan.
    Mr. Hill of Montana. Thank you.
    Mrs. Chenoweth. Mr. Hill, we will return for another round 
of questioning, if you wish.
    The chair recognizes Mr. Peterson.
    Mr. Peterson. Good morning to the panel. Mr. Lyons, in your 
discussion with Congressman Doolittle, you made a statement 
that not only the Tahoe area but much of the forest in the west 
is in serious need of help.
    I am from the east, and I am going out to tour the forests 
in the west so that I become more knowledgeable of the western 
forests. I have been there a couple times, but not in any kind 
of a capacity that I was given the information.
    Would you explain why you are having such deteriorating 
health in the forests in so much of the west?
    Mr. Lyons. Let me start out by saying that I am from the 
east, too. I would suggest that one of the reasons is changes 
in management over time, decisions that were made decades ago 
that impacted how those western forests were managed.
    When we began to exclude fire from many of the forests in 
the west, a number of changes in the growth and development of 
those forests occurred.
    Mr. Peterson. When did that happen?
    Mr. Lyons. It probably began happening earlier this 
century. It is a decades-old decision and reflects some of the 
effectiveness of the Smoky the Bear campaign frankly, which was 
50 years old just a couple of years ago.
    But fire, of course, was the nemesis of many communities 
for a while, and if you look back into history, you can see 
many communities that had to deal with fire, so there was a 
great fear of fire and a lack of understanding of the role fire 
played in western forest ecosystems.
    As fire was excluded, the species mix changed. For example, 
in the California region we were just talking about, as opposed 
to sugar pine and ponderosa pine which tended to dominate the 
landscape, the landscape that was affected by lesser intensity 
fire every 15 to 20 years, the exclusion of fire allowed 
species like white fir and others to in essence invade those 
sites.
    Those are more tolerant species of shade. They grow up, and 
since they are not, if you will, the dominant species, they 
were subject to stress, and when drought, insects, and disease 
came into an area, there was high mortality of the fir.
    The end result is that these trees then and the understory 
in essence create a ladder for fire to run up into the canopy, 
and when conditions are ripe, the fire occurs and we have 
catastrophic fire.
    Ordinarily, what would have happened is fire would have run 
through those systems taking that fir out on a periodic basis, 
and the landscapes would have been dominated by those larger 
and what I would characterize as dominant tree species.
    That hasn't been the case for decades, and we are dealing 
with that now. In essence, what we are trying to do is 
reintroduce something akin to those natural processes on the 
landscape so that management more mimics what would have 
happened if we had not interceded and excluded fire.
    Mr. Peterson. Is it a fair statement to say that in general 
most of the western forests have not been overcut?
    Mr. Lyons. I would say generally that is probably the case. 
Now, I would add as a caveat, there are places where we have 
overcut certain species, and probably accelerated this decline.
    That is why, for example, in eastern Washington and Oregon, 
we are trying to protect ponderosa pine and other dominant 
species as a seed source to bring that into the system.
    But I think as a general rule, that has not been a problem.
    Mr. Peterson. In your goals and objectives, you talk about 
the goals to ensure sustainable ecosystems and multiple 
benefits for people and on and on, but that doesn't tell me 
anything.
    I know ``ecosystem'' is the new word and we are all 
supposed to use it and reverently, but why don't you talk about 
what the future on that forest of recreation is, wildlife 
habitat is, and why don't you talk about your goals in timber, 
grazing, and mining?
    Those are the uses of the forest that are outlined in law. 
Why don't we talk about the specific things that should be done 
there and if the communities are going to have a plan for their 
future, they need to know if you are not going to cut timber. 
They need to know if you are going to shut down grazing there. 
They need to know if recreation is going to be curtailed there.
    Those are all parts of life in rural America, and so often, 
you talk so nebulously that your plans don't give us any idea 
of what is really going to happen there.
    Mr. Lyons. I would suggest, Mr. Peterson, that you are 
right.
    At this level, what we have stated as outcomes, maintaining 
vital communities, sustaining levels of products and services, 
healthy ecosystems, are rather nebulous terms.
    Those then are, if you will, the framework within which we 
have defined specific goals and some of those are laid out on 
the chart here, but then down at the specific ground level, we 
expect our managers within this framework to develop specific 
measurable outcomes which would define, for example, the 
quantity of rangeland improvement we expect them to generate, 
how much improvement in watershed is expected, commodity 
production goals based on their sustainable management 
objectives, and all those would be incorporated in the specific 
forest plans, which as Congressman Hill suggested, would then 
build from the ground up and help to define what our capacities 
are and help us understand what our capability is to meet 
projected demand for all those goods and services, so that 
specificity would occur, for example, on the Allegheny National 
Forest where we talk about how much cherry wood is harvested, 
what our prescriptions and goals are for achieving certain 
management outcomes.
    Mr. Peterson. I know that as an agency, you are pulled in a 
lot of directions, and you have an audience that does not agree 
on how you should be utilized.
    In my area, we know that if we don't fight, we don't think 
you will offer timber for sale because there is a lot of 
pressure not to do that. Right or wrong, that is a separate 
argument.
    It seems to me as an agency you have been overly sensitive 
to groups that speak loudly whether they are big or small. You 
are very timid about standing up for what you do, and I mean 
that sincerely. You have become a very sensitive agency that is 
kind of afraid of your own shadow.
    If you have a plan and this is what you are going to do and 
you are following the laws, I think it is your God-given job to 
speak up for it, but it seems to me that you bend and twist 
real easily to whatever the current criticism is, and there 
will always be criticism. You will be criticized from all 
sides, but that is part of serving in government.
    I think you are an agency that needs to get a spine, and I 
mean that sincerely, and have a plan, that plan publicly 
debated, and then carry it out, and there will always be people 
on different sides taking a whack at you, but that is the 
public policy arena.
    Mr. Lyons. Well, it may surprise you to know that I don't 
disagree with that. I think it is important for us to place a 
stake in the ground and be clear about what we seek to achieve, 
and then engage in a broader public debate.
    I think as an organization we have suffered in the court of 
public opinion, in part because of a lack of understanding, and 
in part, because of mistakes made in the past, and in part, 
because of court cases that didn't go our way.
    It is critically important, and I hope this whole GPRA 
process will allow us then to define those specific goals and 
objectives we set as Francis indicated, and I think you can see 
that Mr. Pandolfi is a breath of fresh air in the organization.
    Then we want to hold our managers accountable for those 
specific outcomes, measure their performance by whether or not 
they achieve what they have committed to achieve in terms of 
all the management goals and objectives that are set.
    I think this is the only way to get the job done. If not, 
then we will be, as Mr. Hill suggested, process-oriented. We 
have lots of process. We have a difficult time getting product 
out, and by that, I don't just mean timber. I mean all the 
other things we produce.
    You are absolutely right. We are misleading communities, we 
are offering a promise as opposed to a specific outcome, and 
that is not the appropriate role for the organization to play.
    I am optimistic though that we are going to get there and 
get there quickly because we have the capacity now to lay out 
those specific goals and objectives, and hopefully develop 
measures of outcomes by which we can hold our managers 
accountable.
    Mr. Peterson. One issue I just wanted to mention was that 
you highly underestimated is the potential of exotic pests. I 
know the Allegheny Forest was--one piece of land you didn't 
want to own during the period of years when the gypsy moth and 
other insects--we had three or four in a row there that just 
hammered that region of Pennsylvania, the land you didn't want 
to own was next to the forest because you almost knew it wasn't 
going to be sprayed, and you could spray yours to protect your 
timber, but the blowover of insects from the forest would wipe 
you right out again.
    Those who owned land next to the forest were the ones who 
really suffered because the forest--again, a public criticism 
of spraying, did not spray, and now we are having mortality, 
heavy mortality. Now, we are trying to harvest some of that and 
we have the same public protests for even cutting down the dead 
trees.
    You are not going to get away from criticism, but there 
again, it is an area that I thought we were not--the Forest 
Service was too sensitive again. I think they knew what to do, 
but they were afraid to do it.
    Thank you for coming before us.
    Mrs. Chenoweth. Thank you, Mr. Peterson. We will return for 
another round of questioning.
    I have some questions. I first want to say that it is very 
interesting as I sit here and listen and observe and feel the 
frustration on both sides. My own frustration, of course, has 
peaked out quite some time ago coming from a State that has 
many communities that are timber-based.
    As I sat here and thought as I pictured the forest, this 
understory and this problem that we are having now didn't start 
with the Clinton Administration. It really started back in the 
1960's. It really started when we had a Democratic president, 
not because of him. It just started evolving through Lyndon 
Johnson, Richard Nixon, Jimmy Carter, Ronald Reagan, George 
Bush, and now you men have the problem of fixing the critical 
mass.
    There is a lot on your shoulders, and I recognize that, but 
I know that we have increased funding every year for our Forest 
Service, and I think that as long as we can keep the goals so 
that we understand it and they are in sync with the existing 
law that we can begin to resolve the problem together.
    What we need are men to match our mountains. I will tell 
you, this is not an easy solution, but it must be resolved. I 
think we all sit here and breathe a sigh of relief, and thank 
you, Mr. Lyons, and thanks to Mr. Dombeck for bringing somebody 
like Mr. Pandolfi in that has a focus we haven't seen for a 
very, very long time in the agency. I know that it is always 
good to have people in your administrative level who can do 
that.
    I thank you for luring him out of the private sector and 
into the Forest Service, because the problems are not easy to 
resolve, and I recognize that. Our concern, my direct 
questions, my questions that may at times be uncomfortable, are 
because I want us to come together on the goals, and I think 
the goals have been clearly laid out in statutory authority, 
and I blanch and get very irritated when I think of an agency 
trying to redefine the goals from those that Congress has 
clearly laid out in the forest and rangeland existing laws, 
under the national forest system land and resource management 
plans, under the Forest Resource Planning Act, section 1604, 
item [m], where it lays out clearly what the Secretary shall 
establish, and it is pretty clear.
    It sets standards to ensure the prior-to-harvest stands of 
trees throughout the national forest system shall generally 
have reached the culmination of mean annual incremental growth. 
That is for harvest, but it also provides that these standards 
shall not preclude the use of sound, silvicultural practices, 
such as thinning or other stand improvement measures, and it 
provides further that the standards shall not preclude the 
Secretary from salvage or sanitization harvesting of timber 
stands which are substantially damaged by fire, wind, or other 
catastrophe or which are in imminent danger from insect or 
disease attack.
    That is so very clear, and I guess I get frustrated because 
we see through various focus groups and so forth we are moving 
away from that. Congress hasn't changed that goal, and to have 
the For-

est Service re-establish goals other than the goals that the 
Congress has established is a source of frustration, and I 
think, Mr. Lyons, this is the frustration you are feeling from 
some of our Members.
    I want to ask the GAO some questions. Mr. Pandolfi has 
given us some indication of the focus that we will be seeing in 
the Forest Service, but you say that the Forest Service's lack 
of accountability has caused excessively lengthy and costly 
decisionmaking.
    What exactly is the link here, and are these problems or 
this lack of accountability something so widespread in the 
agency that we cannot apply general accounting and business 
practices and decisionmaking practices to resolve this issue? 
Generally, how long are we going to have to wait, do you think?
    Mr. Hill. I don't have an answer to that question, Madame 
Chairman, unfortunately. I would like to give Mr. Egan perhaps 
a chance to respond to this as well.
    I talked about this earlier, but I will say that the 
accountability problem has been a longstanding problem, and it 
will be a difficult one to resolve because of the culture of 
the organization.
    Interestingly enough, it is a problem that the agency has 
recognized for many years dating back--it has been recognized 
by a number of agencies including GAO as early as 1981, and the 
Forest Service itself studied the issue in the early 1990's 
with an accountability task force and have studied it numerous 
times since, and has come up with specific recommendations that 
they feel could fix it.
    One of the concerns we have is their lack of following 
through on those studies and implementing those 
recommendations, so I think a good starting point would be to 
look within their own task force results and see from there 
what they can pull out and use as a foundation to buildupon.
    With that, I would like Mr. Egan to say a few words.
    Mrs. Chenoweth. Thank you.
    Mr. Egan. I would just like to add an example, and it kind 
of goes on what Congressman Hill was discussing.
    One of the problems that they always have when they go to 
make a decision is a lack of data. The point is, that they have 
not just had 2 years to fix that problem.
    When they were developing their first set of forest plans 
back in the late 1970's, we came up with a report and testified 
on the fact that the agency didn't have the information it 
needed to make informed decisions, and then ten to fifteen 
years later they go to redo their plans, when they go to 
prepare the strategic plan, they say, lo and behold, we still 
don't have the data that we need to make informed decisions.
    The efforts that they have undertaken to re-engineer 
themselves have run into a roadblock because they don't have 
data on inventory. When they tried to use it in one forest in 
California, the forest didn't know where its streams were, much 
less the conditions of the streams, and that is an example to 
me of why it is so important that the agency take advantage of 
the new leadership and advantage of the new law and address 
those problems that have been identified as deficiencies for a 
decade or longer.
    Mrs. Chenoweth. Thank you. Mr. Pandolfi, did you wish to 
contribute?
    Mr. Pandolfi. Yes, I would. Thank you, Madame Chairman.
    I would like to answer your question specifically, the one 
that you asked about when you can assume the Forest Service 
will have better data and greater accountability. It will 
easily take several years.
    This is nothing that we are going to be able to solve 
overnight. What took 20 years to create cannot be fixed in 20 
months, and I would point out an interesting comparison 
actually of a very effective private sector example of an 
organization that had to do very much the same things that we 
have to do, and that is General Electric, where Jack Welch, the 
CEO, is universally regarded as one of the most effective CEOs 
in the country, and it took him 10 years to get General 
Electric where he wanted to get it and to achieve the kinds of 
things that today make that corporation recognized as one of 
the most outstanding in our country.
    Now, that is not, however, to say that we should all feel 
depressed about this, because if we make progress, I think we 
can feel good, but we need to understand the problems and we 
need to have tough actions to fix them.
    I am going to give you just a couple of examples of things 
that we have to recognize. Decentralization, that I believe 
Barry Hill mentioned a few minutes ago.
    The Forest Service takes enormous price in 
decentralization--we have managers in the field who can do what 
has to be done and we can count on them to do it.
    Decentralization is just fine when it comes to resource 
management, providing we have some overall direction and 
policy. Decentralization is killing the Forest Service when it 
comes to administration.
    We cannot have every forest region measuring trees 
differently which today is the case. We cannot have every 
forest region handling its accounts receivable and its accounts 
payable according to different standards, which is the case 
today.
    We are in the process of installing a new general ledger, a 
new accounting system that we hope will go into place October 1 
of this year that will begin to remedy these problems. You 
should take some comfort in the fact that things are ongoing 
now to remedy the problems that the GAO has brought up.
    But I would say that the problem in the Forest Service is 
not a data base that has better information with respect to the 
size of the trees or a general ledger or a list of tasks as I 
indicated earlier. The problem in the Forest Service from a 
management point of view is in my estimation the most 
interesting and challenging problem any manager could have, and 
that is to change the culture.
    In the Forest Service, the people say we are the Forest 
Service, we take care of the land, and that is that. That has 
been the way it has been for many, many years, and we have to 
show people that there is an incentive to pay better attention 
to how to run the business, and if they pay better attention to 
how to run the business, we will be far more effective 
managers.
    Our unit costs have gone out of control in region one in 
Montana--I believe you are in region one also--and the unit 
costs have gone out of control which creates enormous 
inefficiency in how we spend the money that we can barely get 
our hands on, because for example, doing a timber sale today is 
far different, I understand, than doing it 10 years ago. There 
are so many legal challenges now, our employees try to bullet-
proof every sale, they work and work and work to create the 
sale, and by the time they get the decision done, there may be 
other factors impinging upon the sale that mean we should 
cancel it anyway.
    These are some of the serious problems that have to be 
overcome. So the question is, what is the incentive? Why should 
anyone want to change in the Forest Service? After all, we 
won't have financial statements this fall, and Congress still 
gave us the money. You still gave us $2,500,000,000 to spend 
even though we don't have this information.
    They see that they can continue to get money even though we 
don't have the systems and procedures that we need to run the 
business effectively. The incentive, however, I think is very 
clear.
    I have been on 20 forests since I have come here, and I 
love to fish and hunt, and I love to ski, and I find the 
forests enormously beautiful. Very fortunately, and I think you 
all three know, the young people, the people that we have out 
there in the forests, they care a great deal. They care an 
enormous amount about what goes on, and we are darned lucky to 
have them out there.
    Now, what incentivizes then? It is not the stock option 
plan. What it is is to put more money onto the land to do a 
better job, to see that the fish are healthier, to see that the 
riparian area is healthy, and so on, so that if we can provide 
for them the money to do that by being more efficient, which we 
can do with better data, we will incentivize them to change in 
a way that has never been done before.
    No one has ever pointed that out, and that is a very 
powerful incentive.
    Mrs. Chenoweth. Mr. Pandolfi, I used to teach what is it 
that motivates employees, and it isn't just more money.
    Mr. Pandolfi. No.
    Mrs. Chenoweth. And I know that you know that, too, from 
your background. It is the ability to know that there isn't a 
moving target out there as far as the goals. That is why I 
think it is so important that our goals should focus on the 
statutory authority, the statutory law.
    If we don't have moving goals, then we don't have plans 
that change as much as they do. Unfortunately, there has been 
case law that has come down that has interrupted this whole 
process. I do understand that.
    It is incumbent upon us to help straighten that out, but 
the fact is that we do have moving goals, and these young 
people out there who love the forest as much as you and I do 
don't know where to light, and plans are developed and then 
they are shelved, and nobody can see the footprints in the sand 
of the results that they invested a whole lot of their life in, 
trying to bring a plan forth.
    I do understand their frustration, but I do see the problem 
as twofold, a moving goalpost as far as the goals, and the 
continued interruption of litigation that has caused these 
goals to move in large part, plus I think whatever reason they 
might have, but I do think we need to go back to statutory law.
    Mr. Hill, do you have any other questions?
    Mr. Hill of Montana. Thank you, Madame Chair. Following up 
on that very subject, one of the concerns I do have is that the 
people who are out there on the land may very well have a 
different vision in mind with regard to what the goals and the 
performance ought to be than what Congress has instructed.
    I think that is part of the dilemma that we are having 
here, and I think that there is some sense that maybe gridlock 
is working to one advantage or the other, and I would just 
caution you about that.
    Let me ask you a question, and I know this is going to 
difficult for you, Mr. Pandolfi, but on a scale of one to ten, 
ten being a high performance organization and one being a low 
performance organization, where would you put the U.S. Forest 
Service?
    Mr. Pandolfi. One.
    Mr. Hill of Montana. And where do you think it----
    Mr. Pandolfi. Excuse me. I should clarify that. There is a 
lot of very effective stuff that goes on out in the field. When 
you addressed the question to me, I assumed perhaps you were 
referring to the administrative ends of the business and how we 
keep our records. One.
    I think there are a lot of people in the field that have to 
get tens, because they do real good work.
    Mr. Hill of Montana. Where do you think it will be in the 
year 2000?
    Mr. Pandolfi. My guess is that we certainly will have made 
improvements. We will be no GE.
    Mr. Hill of Montana. How long will we wait before we have 
an eight to ten organization?
    Mr. Pandolfi. As I said a minute ago, the fact is that the 
challenge in the Forest Service is not to put in a better 
accounting system. The challenge is to get people to think 
differently, and to get people to think differently, as the 
chairman has just said, you need to find incentives to motivate 
them, and the incentive clearly is not a bonus in their wallet.
    We have to begin to put some successes together. You build 
brick by brick. That is why this is so hard. Brick by brick, 
nail by nail. There is no magic for what has to be done.
    In fact, it is exciting that the management tools that are 
needed here have been in place for years. We have had debits 
and credits for 250 years. All we have to do is use them 
correctly.
    Mr. Hill of Montana. The fact is that the Forest Service 
does have the ability to generate resources. They can generate 
revenue.
    Mr. Pandolfi. Absolutely.
    Mr. Hill of Montana. Mr. Lyons, let me ask you the same 
question. Where would you rate the organization today on a 
scale of one to ten?
    Mr. Lyons. I am not going to comment on our administrative 
effectiveness, because I think Francis has hammered that home.
    I would give us a little better rating in terms of our 
resource management performance, although I think we are going 
through a transition. I would give us up around a four or five.
    We are certainly not where we want to be.
    Mr. Hill of Montana. And where will we be in the year 2000?
    Mr. Lyons. Again, I think we will be making some 
improvement, but that is going to take some time.
    I want to comment on Francis' point about culture, because 
I have been at this now for 4 years, and I have run headlong 
into the culture on a number of occasions.
    It is a fascinating situation. I don't have the business 
experience that Francis has. I worked on Capitol Hill for 6 
years, so I don't know what that qualifies me for, Congressman, 
but anyway----
    Mr. Hill of Montana. Probably not a high performance 
organization.
    Mr. Lyons. Maybe the two of us could sit down and work on 
it together.
    I can assure you that dealing with the Forest Service which 
has a proud and long history which helps to define its culture 
and effecting change in that culture is a rather difficult 
task.
    One way is to identify and incentivize the organization, 
determine what it is that motivates people. Another way, 
frankly, to effect change is simply through changes in 
leadership, and we are going through a number of changes and 
have been over the last year or two merely by virtue of the 
demographics of the organization where we have a lot of people 
who are at the senior level of performance and will be moving 
on.
    I suggest that only to note that that affords us an 
opportunity perhaps to effect some change as well, as new 
leaders come up who have a different understanding of what 
needs to be accomplished and more focused on efficiency and 
business practice, and perhaps more motivated than people who 
have been there for a long time, who frankly are more concerned 
about protecting the culture than effecting change in the 
organization.
    All organizations go through change. It is remarkable to me 
that the Forest Service has been able to resist change for as 
long as it has.
    Mr. Hill of Montana. It is also important that these new 
leaders make sure their vision of the Forest Service is 
consistent with Congress', and I have some concern about that.
    Obviously, you have a mixed mandate here, and leaders can 
choose to put emphasis on one mandate over another, and I think 
it is very, very important that if this is going to be a 
healthy organization that is going to sustain that health over 
the long term, it has to make sure that the leaders are 
compatible, that their vision is compatible with the 
policymakers, and I think Chairwoman Chenoweth alluded to that 
in her questioning.
    Mr. Hill, I would ask you to make your comment about the 
performance of the Forest Service.
    Mr. Hill. I would agree with Mr. Lyons and Mr. Pandolfi 
that the Forest Service is on the low end of that scale 
currently. If you also ask me where they are likely to be in 
the year 2000----
    Mr. Hill of Montana. With this plan. Is this plan that they 
have presented in draft form, is this going to take them to a 
high performance organization in your judgment?
    Mr. Hill. The plan as currently written will not, and I 
think it will be a slowly evolving process.
    What I was going to say that if you look historically, my 
projection by the year 2000 is, they are likely still to be on 
the low end of the scale based on their history of studying 
problems and making recommendations but not following through 
and putting things in place and holding their managers 
accountable.
    On the optimistic side, with the Results Act requirements, 
I think there is a new opportunity here to break that cycle, 
and with Mr. Lyons' testimony this morning in terms of the 
changes that he is planning to make to the draft plan I think 
are all really good, strong steps in the right direction. If 
those changes are made, I am optimistic that the plan will be 
much better than is currently laid out.
    But the Results Act process is going to be a long-term 
effort. It is going to take years for all Federal agencies to 
see really positive results there, and I think that is 
particularly true of the Forest Service where you have a lot of 
complex issues and controversies that have to be sifted 
through, but the important thing is, if we are going to make 
progress, we have to get off on a good foot, we have to start 
on a good foundation, and so I think it is important that the 
changes they make to their draft plan be in accordance with the 
changes that Mr. Lyons suggested they were going to make.
    In terms of making progress and resolving their issues, I 
think the term that we are using now is that this is where 
accountability begins. It is time to stop talking about it and 
use the Results Act and the strategic plan that is going to be 
finalized at the end of this fiscal year to start the 
accountability process.
    Mr. Hill of Montana. I just want to thank all of the 
members of the panel for their candidness and their testimony 
here, and I just want to let all of you know that a healthy 
Forest Service matters a great deal to me and to the people who 
are my constituents for obvious reasons.
    I have a lot of national forest land. Montanans use the 
national forest not only to make a living but also extensive to 
recreate. It is a wonderful resource that we have, and we want 
to do everything that we can, and I will do everything that I 
can to work with all of you to achieve that.
    I would just further say to you that I would urge you to be 
very careful, and I am making reference to the forest chief's 
comments that would tend to put emphasis on one or the other of 
the many mandates that you have.
    If you really want to have an organization that is going to 
be able to put into place a consistent plan, it will have to be 
consistent with Congress' mandates, and without an over-
emphasis on one or the other of the multiple-use goals.
    And if you don't, the next administration that comes in is 
going to have a different vision, and whoever that is or the 
next Congress, and that is going to make it difficult to have 
an organization that is healthy over the long term.
    Thank you very much for being here. I appreciate it very 
much. Thank you, Madame Chairman, for this hearing.
    Mrs. Chenoweth. Thank you, Mr. Hill. I have so many 
questions, I don't know where to begin, and this may not be 
quick and easy.
    I have just sent my staff out, Mr. Lyons, for a response 
that we received from the Panhandle Forest in northern Idaho, 
and as you may know, last November, we suffered a severe ice 
storm there, and about one-third of the timber broke about 30 
feet up, and it is lying on the forest floor.
    This is the kind of accountability forest by forest we need 
to work on, because I had asked last December, asked the forest 
supervisor to keep me posted as to what his plans were to pick 
that timber up off the forest floor.
    I know that that particular region had to go through a 30-
percent cut in employees because there wasn't any more money in 
the timber trust fund, and yet all we have to do is go out and 
pick those logs or those broken portions up off the ground, and 
of course, take care, as you know, of the broken stumps, 
because they are a wonderful habitat for bugs and all kinds of 
diseases and problems. They will all die, and they are nearly 
dead now, and fire could come in there very easily.
    I never did hear from the forest supervisor. Finally, I had 
the Committee staff call the regional supervisor who I have a 
lot of respect for; we all do in the northwest for all of those 
regional supervisors that you have placed there. He assured us 
that we would receive a report and a telephone call. I didn't 
even ask for the call to come to me. I asked for it to come to 
my staff, because it is easier to find my staff.
    This is the report that we had faxed through. Of all of 
that downed timber, this is the report that we had faxed 
through.
    So when we ask for accountability, I have reached the end 
of my rope, so I am going to you with it before going public 
with it in Idaho. I think accountability to not only me but to 
you, the chief, and Mr. Pandolfi as he is trying to get 
information retrieval banks set up in each forest. We also need 
to know how ongoing projects are progressing.
    This is pitiful, and of course, as was just testified to, 
that has the highest unit of cost of any of the regions, along 
with one of the regions in Montana.
    I would appreciate your personal focus on that. I would 
like to be able to build up the timber trust fund just from 
taking care of this salvage.
    Do you have any response? I don't want to just lay this on 
you without response, and if you don't care to respond, that is 
fine.
    Mr. Lyons. Let me apologize for the fact that you didn't 
get a response as you should have, and I will assure you that 
you will have a response before the close of business today.
    Mrs. Chenoweth. Thank you, Mr. Lyons. I want the response 
as I know you do, too, to show progress, and I want us to build 
up that timber trust account again.
    Mr. Lyons. I will talk to your staff to get the specific 
information that you need.
    Mrs. Chenoweth. Thank you very much. You mentioned that you 
are legislatively mandated to manage for six renewable natural 
surface uses which, as we know, are already in the statutes, 
none of which are ecosystems. I personally believe ecosystem 
management is a value rather than a tool that we can use to 
achieve a goal.
    Your first strategic goal is to restore and protect 
ecosystems. It seems that we have moved away from the six 
renewable natural surface uses into a harder to define goal of 
ecosystem management, so the basis for your first goal and 
multiple use or the basis of these six goals and multiple use 
seem to have been set aside.
    Isn't restoring and protecting ecosystems really a 
management approach or a strategy to achieve a goal rather than 
a goal in and of itself? How do you feel about that?
    Mr. Lyons. Well, I think managing to protect healthy 
ecosystems is a mechanism to ensure that we meet our legal 
mandates under the Multiple-Use Sustained Yield Act.
    I think it is defined as a goal because we have a great 
deal of work to do to address issues associated with the health 
of ecosystems as a mechanism for ensuring that we can sustain 
production of the multiple benefits which you mentioned, and 
that work runs the gamut from restoring deteriorated watersheds 
to dealing with the backlog of road maintenance to ensuring we 
meet our goals and objectives in terms of protecting and 
repairing resources to threatened and endangered species and 
the like.
    The two certainly are linked, but the concept of ecosystem 
management is in my mind a tool we use to ensure that we 
consider all those pieces in an integrated fashion and 
understand the relationship between management to achieve one 
goal and impacts on another.
    I think it is important that we highlight that, and one of 
the reasons that it became one of our goals. We are not only in 
the business of production, but we are in the business of 
restoration these days; restoring fire to fire-adapted 
ecosystems would be a good example, and it is for that reason 
that we have identified that as one of the goals that we seek 
to achieve.
    I think by focusing on that goal and specific outcomes, we 
have identified--I should say, focusing on that outcome and 
specific goals as identified, we can better ensure that we are 
going to be able to sustain production of wood fiber and 
recreation and water flows, healthy rangelands and the like. 
That is really what we are seeking to achieve.
    Mrs. Chenoweth. I am now quoting from the GAO report on 
Forest Service decisionmaking, page 68, which I have studied 
very carefully. ``Both the Forest Service Chief and 
Agriculture's Undersecretary for Natural Resources and 
Environment have testified that the national forest systems 
management now emphasizes the maintenance of ecosystem health 
to sustain the production of all goods and services derived 
from the national forests. According to them, management 
activities such as timber sales serve as tools for improving 
the forest health.''
    Now, I ask you, when did timber stop being a legislatively 
mandated use and become only a tool to accomplish another use?
    Mr. Lyons. Timber, of course, is one of those multi-use 
products that are identified in statute, and by saying that we 
intend to use timbering or timber sales policy as a tool is not 
to imply that timber, wood products aren't in essence one of 
the items we seek to produce, not by any means.
    There are a limited number of tools we have to effect 
improvements in the landscape, such as improving forest health, 
and vege-

tative management or timbering is one way in which we seek to 
achieve that.
    That objective has multiple benefits. It gets at our 
concern for sustaining ecosystems and ecosystem health. It 
produces wood products which provide employment, and it helps 
reduce wildfire risk which is also a concern for communities 
throughout the west.
    Timbering is a tool. It is a very important tool, and the 
reason that I made that comment was to emphasize the fact that 
that is a mechanism that we need to use to achieve multiple 
goals so that we didn't simply focus on that as one objective 
and lose sight of the relationship between what we do in terms 
of timbering and how it affects water quality or wildlife 
habitat or other concerns that we have as a part of our 
multiple-use mission.
    Mrs. Chenoweth. But I believe--and wouldn't you agree--that 
that really is an example of your emphasizing conservation over 
the active management of national forests?
    Mr. Lyons. That is an interesting comment. I heard Mr. Hill 
draw a distinction between consumption and conservation, I 
guess, and as I was taught the concepts of conservation, they 
embodied wise use of natural resources, so there is a 
consumption element as well as, if you will, a resource 
protection element. The two go hand in hand, so I don't 
understand that distinction, quite honestly.
    Conservation is what we are about, and that ensures, if we 
are in fact good land stewards practicing good conservation, 
that we can sustain production of the goods and services that 
we seek to produce.
    I must admit, I don't see the distinction.
    Mrs. Chenoweth. Mr. Hill, do you have any comments with 
regard to the Secretary's comment?
    Mr. Hill. I will defer to Mr. Cotton.
    Mr. Cotton. What we were laying out in this report what is 
behind the issue of consumption versus conservation is the fact 
that they do have a multiple-use mandate to sustain over time 
six surface uses.
    As Mr. Lyons had pointed out earlier today, in some areas 
of the country in the past, they have indeed emphasized timber 
production to the detriment of sustaining another one of those 
uses being fish and wildlife and the habitats that they rely 
on.
    To correct that deficiency and to respond to laws other 
than their multiple-use mandate in the Endangered Species Act, 
the diversity provisions of NFMA, the Clean Water Act, the 
Clean Air Act, what they have done in their new plan, in their 
draft RPA, is to shift that emphasis within that multiple-use 
mandate from emphasizing timber production to emphasizing 
sustaining wildlife and fish, and the approach, and I think you 
are absolutely right, Madame Chairman, the approach that they 
have chosen to do that is to recognize the fact that this use 
is dependent upon ecological boundaries and not administrative 
boundaries. That is why they are moving toward managing for 
ecosystems as opposed to managing purely forest or other 
administrative boundaries.
    The point, and in the report, it is explained in more 
detail the reasoning for or the factors that have led them to 
make this shift in emphasizing timber to sustaining wildlife 
and fish and the ap-

proach that they have chosen to do it. In the end, since in 
many places these uses compete with each other, the agency has 
had to make a tough decision and said, OK, right now in this 
area, we are going to stop cutting green timber, and we are 
going to emphasize more sustaining the habitats of fish and 
wildlife.
    That is where we came from as far as what is behind our 
observation in that report that there is this shift in emphasis 
within the multiple-use mandate from consumption to 
conservation.
    Mrs. Chenoweth. That is very good. The competing uses, I 
believe, have caused the Forest Service, just under the sheer 
weight of the pressure, to try to change the culture.
    Mr. Cotton. I agree. I think you had a good point early on 
in the fact that I think what is missing now in the strategic 
plan and what I heard in the testimony today is the fact that 
the Forest Service is going to do a better job of explaining 
the link between their multiple-use mandate and their 
management approach to managing these resources and uses on the 
national forests.
    If they do that, I think there will be a better 
understanding that when they have to make these hard choices, 
they don't to their broad multiple-use mandate, but they look 
to other laws, and as you pointed out, the judicial 
interpretations of those laws that tell them what they can or 
can't do.
    I think if they just laid that out and made that link, made 
that connection between mission and strategic goals and 
objectives for each of the multiple uses, I think it would go a 
long way to helping you decide if you need to make legislative 
changes to make your expectations and desires known.
    Mrs. Chenoweth. Mr. Lyons.
    Mr. Lyons. If I could just comment on that, and I don't 
want to split hairs, but on this issue of conservation policy, 
I just want to make one point.
    I don't think--there tends to be a misperception within the 
broader public as to what multiple use is. The term multiple 
use has become code, if you will, for timber production.
    You and I have seen that in how people have challenged some 
of the things we do on the ground, so there tends to be this 
presumption on the part of some that multiple use means 
commodity production, and then our other activities are 
consistent with protecting and preserving natural resources.
    I think the truth is that to ensure the sustained yield 
which is our mandate under the Multiple-Use Sustained Yield Act 
for all the goods and services that come from the national 
forests, one has to practice good conservation. One has to 
consider to ensure water flows, that we are cognizant of the 
management activities we engage in timber harvesting upstream. 
To sustain wildlife habitat, we certainly have to be cognizant 
of how we manage forested landscapes. To protect recreation 
opportunities, we have to take into account scenic values and 
the relationship between water flows and timber harvesting.
    All those pieces are inextricably linked. Ecosystem 
management is the way we achieve that. I don't know that I am 
disagreeing with anything that the gentleman from GAO has said, 
except that I want to be clear that at least in my mind, to 
achieve our multiple-use mandate, we do have to take into 
account the competing uses, if you will, on the national 
forests and balance those out over time, and we do so by taking 
into account what impact a given action will have on a certain 
part of the landscape on other activities.
    It is critically important that we view things in that way. 
I guess what I am trying to say is that it is not the 
Endangered Species Act that drives us there, it is not NEPA; it 
is the Multiple-Use Sustained Yield Act that mandates that we 
take those values and those concerns into account.
    In fact, there was a landmark case sometime ago in Idaho 
which some forest plans were challenged because we failed to 
take into account cumulative effects. This was some time ago 
when I was on the staff of the committee, but I recall that was 
the first step, if you will, that required us to look across 
administrative boundaries beyond one national forest to another 
to consider the impacts that they were having.
    That was actually part of the genesis that led us to 
looking at these larger ecosystems, and I think it is 
critically important that we do in fact do that so that we 
understand the linkage between one resource outcome and 
another, if we are going to achieve those management goals and 
meet our legal mandate.
    Mrs. Chenoweth. I would like to stay here and have more of 
a dialog, because this is very interesting, but I do want to 
move on.
    I would have to agree with GAO that you need to spend the 
time between now and September 30 revising your draft plan to 
better articulate your rationale for emphasizing some 
legislatively mandated uses more than others and your ecosystem 
approach to managing natural resources. I also believe that you 
need to explain the likely effects of these policy changes on 
other uses.
    Can I count on the Forest Service's final plan to clearly 
link your goals to relevant statutory authorities?
    Mr. Lyons. Hopefully, you can, Madame Chairman.
    Mrs. Chenoweth. Thank you. Can I count on the Forest 
Service's final plan to separate strategic goals based on 
legislative mandates from your preferred approach to managing 
natural resources so that we can have an informed discussion on 
mission-related priorities without muddying the waters with 
other issues?
    Mr. Lyons. Yes, I believe you can.
    Mrs. Chenoweth. Can I count on the Forest Service's final 
plan to discuss the likely effects of these policy choices on 
other uses?
    Mr. Lyons. Yes.
    Mrs. Chenoweth. Thank you, Mr. Lyons. I want to thank all 
of you, Mr. Hill, Mr. Pandolfi, and both of you gentlemen for 
your contribution.
    Mr. Lyons, in our invitation letter to Secretary Glickman, 
I asked six questions which were not completely answered. They 
were hardly touched on, and you know how I feel about that.
    I would like to ask that you provide a more detailed answer 
to each of these questions for the record, and I will send 
these questions to you along with any other questions that I 
have not asked today, but which mean a lot to me and that may 
have not been asked, so that you can take more time for a 
thorough reply.
    This record will mean a lot to me, a lot to the Committee, 
and I am sure a lot to you as you move through this. I do not 
want to single out one forest or one forest supervisor unduly. 
I don't think I did unduly, but it is this kind of response 
that creates almost--well, it is more than irritating to us, 
and I appreciate your attention to this matter.
    I don't want to just see a ten-page explanation of what we 
have on a half-page. If we don't get any more information than 
we did on the half-page, that is what I want to receive, but I 
want to see progress in that particular area, because of the 
serious condition of the forest because of that downed timber.
    Mr. Pandolfi, I think that your likening the problems in 
the Forest Service, and I recognize the genesis of the 
problems. I just think that rather than setting forests on 
fire, we need to get in there with human energy and some of 
these sophisticated machines that we have and take care of that 
understory.
    I was in California, and there had been an experimental 
project with regard to fire, and actually what happened was 
that the understory now resulted in a condition of it being 
more in a tinder-like situation and more likely to explode in 
fire.
    I do want to see us look at other alternatives, besides 
fire alternatives, that I think were wisely put down here in 
the National Forest Management Act by people with a lot of 
wisdom who were here long before I was.
    I do want to say that your likening this project to what GE 
had to go through is realistic, but I don't want to see us back 
down from seeing a 20-percent improvement, marked improvement 
that we can all understand every single term so that in 10 
years, hopefully, we can be at a place where having a 
decentralized agency, which I think we all agree is better; 
having a decentralized agency nevertheless can be accountable 
to the secretaries and to us.
    I was on a task force last year, for instance, and it was 
last term, 2 years ago. I realized that this agency and the 
whole administration was in shock from the Congress changing 
leadership and the majority, and we wanted to make a lot of 
changes quickly. I realize the shock factor. I realize that 
now, but nevertheless, on our task force hearing tour, we 
consistently received the answer from forest supervisors that I 
am not able to give you the allotted board feet of annual cut 
this year because the question is in the Justice Department for 
what my response should be. It had not only gone from the 
forest supervisor, where he should be able to give a very 
simple fact like that. It went through the secretaries and 
landed in the Justice Department and we couldn't get an answer.
    I feel now that things have eased off and that a lot of 
that problem is just beginning to take care of itself, but we 
are seeing a centralization, not even just necessarily in the 
Forest Service, but a centralization back here in Washington on 
Forest Service sales and a lot of those problems that we can't 
move through because there has to be a decision made here in 
Washington, DC.
    I hope, Mr. Secretary, that we can see truly the 
decentralization, that those men that I have learned to regard 
with respect can make the decisions out there in their own 
regions and on their own forests.
    I appreciate your time. We have taken a lot of time on this 
today, and I would appreciate and look forward to your 
responses to our questions.
    Thank you all very much. This has been very interesting. 
Thank you, and of course, the hearing remains open for any 
further comments you would like to make for the record, and we 
will keep it open for your responses.
    With that, this hearing is adjourned.
    [Whereupon, at 12 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of James R. Lyons, Undersecretary, Natural Resources and 
              Environment, U.S. Department of Agriculture

    Madam Chairman and members of the Subcommittee: I am 
pleased to appear before the Subcommittee today to discuss the 
implementation of the Government Performance and Results Act of 
1993 (GPRA) in the USDA Forest Service. I am accompanied by 
Francis Pandolfi, Chief of Staff, Forest Service.
    As requested in your letter of invitation, I will describe 
what GPRA requires, the Forest Service mission and statutory 
authorities, GPRA strategic goals, and the resources needed to 
accomplish the GPRA plan.

What GPRA Requires

    GPRA requires that Federal agencies submit a strategic plan 
to Congress and the Office of Management and Budget by 
September 30, 1997. The strategic plan for the Forest Service, 
as for other Federal agencies, will cover the major functions 
of the agency and contain 6 items:
        <bullet>  a mission statement
        <bullet>  goals and objectives
        <bullet>  a description of how the goals and objectives will be 
        achieved
        <bullet>  a description of the relationship between performance 
        goals in the annual performance plan and the goals and 
        objectives in the strategic plan
        <bullet>  identification of key factors, external to the agency 
        and beyond its control, that could significantly affect 
        achievement of goals and objectives
        <bullet>  a description of program evaluations used in the 
        strategic plan, and a schedule for future program evaluations.
    The strategic plan spans a minimum 6 year period--the fiscal year 
it is submitted and at least five fiscal years forward from that fiscal 
year. A strategic plan is to be revised and updated at least once every 
3 years. These plans set the agency's strategic course, its overall 
programmatic and policy goals, indicate how these goals will be 
achieved, and are the foundation and framework for implementing all 
other parts of GPRA.

Mission and Statutory Authorities

    The Forest Service mission is to work collaboratively to promote 
the health of the land and meet the diverse needs of people. The phrase 
``Caring for the Land and Serving People'' expresses the spirit of that 
mission. Implicit is the agency's collaboration with partners in 
serving as stewards of the Nation's forests and rangelands. The Forest 
Service provides leadership in the management, protection, and use of 
the Nation's forests and rangelands. Its operating philosophy is 
ecosystem management where the quality of the environment is maintained 
and enhanced to meet current and future ecological and human needs. The 
agency uses that approach to provide sustained renewable resources, 
such as water, forage, wildlife, wood, and recreation.
    The Forest Service has a long tradition of land management, 
scientific research, and technical assistance. From the Organic Act of 
1897 to the environmental legislation of the last thirty years, the 
laws that direct the agency are many. Legislation has mandated new 
directions for the Forest Service and has created opportunities for 
public participation in agency decision making. In recent years, 
changes in the law have reflected increased public interest in the 
management of National Forests and National Grasslands. These laws have 
also established the role of the Forest Service in providing technical, 
financial, and economic assistance to State and private forestland 
owners and in providing leadership in international forestry issues.
    Statutes that provide the legislative mandate for Forest Service 
programs fall into one of three major categories: 1) specific authority 
for Forest Service activities (for example, the Multiple-Use Sustained 
Yield Act, the National Forest Management Act, the Forest and Rangeland 
Renewable Resources Research Act, the International Forestry 
Cooperative Act, and the 1990 and 1996 Farm Bills); 2) more broadly 
applicable environmental requirements (for example, the National 
Environmental Policy Act, Clean Water Amendments Act, and the 
Endangered Species Act); and, 3) statutes that allocate National Forest 
System lands to specific management regimes (for example, the 
Wilderness Act and the Wild and Scenic Rivers Act). As requested during 
Congressional consultation, the Forest Service is revising the GPRA 
strategic plan to integrate the programs and authorities established by 
these laws.
    Under the Forest and Rangeland Renewable Resources Planning Act of 
1974 (RPA), we prepare an assessment of renewable resources on all 
lands every 10 years and a recommended program for Forest Service 
activities every 5 years. Since 1974, the Forest Service has prepared 
RPA program documents and an annual report of accomplishments (Report 
of the Forest Service). The update in 1993 of the RPA as-

sessment and the draft 1995 recommended program form the core of the 
agency's GPRA strategic plan.
    The 1993 update of the RPA Assessment contains projections of 
resource use over the next several decades and identifies resource 
situations that are potentially acceptable, deteriorating, or serious. 
For example, the most recent RPA draft program projects that, by the 
year 2000, over 75 percent of the contribution of the National Forests 
to the Gross Domestic Product will come from recreation. The RPA draft 
also pointed out some potentially deteriorating resource conditions 
such as ecological integrity, forest health, loss of biological 
diversity, and the decreasing amount of wetland and riparian acreage.
    One of the strengths of using the RPA draft program as the basis 
for the GPRA strategic plan was the significant amount of public 
involvement in the development of RPA. Two national focus group 
meetings were held at the beginning of the process. These meetings 
provided a forum for the early identification of issues. In 1995 and 
1996, the most recent draft RPA program was available for public 
comment. The Forest Service held six regional listening sessions during 
the public comment period as well as a series of briefings for members 
of Congress and others in Washington DC and received over 1,500 
comments. In addition, the Forest Service participated in two 
congressional oversight hearings.
    The public has had access to the latest version of the draft plan 
through the Internet. In addition, the Forest Service has consulted 
with Members of Congress through briefings with the House Committee on 
Agriculture, House Committee on Resources, House Interior and Related 
Agencies Appropriations Subcommittee, the Senate Agriculture Committee, 
the Senate Committee on Energy and Natural Resources, and with the 
General Accounting Office.

Goals, Objectives, and Outcomes

    Forest Service has two mission-derived goals and one management 
goal. These goals are to ensure sustainable ecosystems, provide 
multiple benefits for people within the capabilities of ecosystems, and 
improve organizational effectiveness through management initiatives. 
Each of the three strategic goals have objectives focused on 
quantifiable ``outcomes'' for a 3-5 year period.
    It is an ongoing challenge for the Forest Service, a land 
management agency, to develop outcomes which measure the health of the 
land. One of the principal issues is the need to shift the focus from 
commodity production to ecosystem management. Other difficulties 
include:
        <bullet> Qualitative long-term measures of resource conditions 
        and trends are currently lacking.
        <bullet> The Forest Service needs to improve consistency and 
        reliability of its data.
        <bullet> Several years are needed to identify measurable 
        changes to natural resource conditions in order to assess 
        ``outcomes'' from management practices and research.
    Interagency collaboration is occurring to develop common 
goals and performance measures. Regional ecosystem assessments 
will help to establish baseline data for results. The natural 
resources performance measures forum--which the Forest Service 
participates in--is another effort underway.
    The Forest Service expects that these efforts will 
eventually result in performance measures that can be 
consistently applied by all of the Federal agencies that manage 
programs to conserve ecosystems and their resources. As a 
result, the Forest Service GPRA performance measures will 
evolve over the next several years to more closely measure 
outcomes from our programs.

Resources Needed

    The resource conditions identified in the RPA assessment 
provided a focus for the strategic goals and objectives in the 
GPRA strategic plan. Although ways of measuring resource needs 
are still being developed, considerable investments will be 
needed to ensure sustainable ecosystems and to meet appropriate 
levels of demand for uses, goods, services, and information. 
Financial resources will come from a variety of sources, 
including appropriated funds, permanent and trust funds, 
contributions from partners, fees, and cost savings from new 
technology and re-engineering of work processes. A redirection 
of funds within the current budget may be needed as well as 
some changes in how the agency approaches its mission.
    Based on consultation with Congress, the Forest Service is 
revising its GPRA strategic plan. The final plan will 
incorporate some changes that Congress had requested, including 
explicit language linking the laws to the agency's mission, 
address long-term objectives for the agency's major functions, 
identification of key tasks and baseline information needed, 
linkage of strategic goals and objectives to performance goals 
in the annual performance plan, identification of key factors 
ex-

ternal to the Forest Service that could have an impact, and 
last, a description of how program evaluations will be used to 
refine strategic goals.
    As the agency formulates its fiscal year 1999 budget 
request, Chief Dombeck is involved in his first opportunity to 
establish his priorities and evaluate trade-offs. The budget 
process and the development of the agency's operating plan for 
fiscal year 1999 is expected to provide further insights to the 
agency's strategic goals and objectives and additional 
refinement of both performance measures and the linkages 
between the operating and strategic plans. Because of this, the 
Forest Service expects to further refine its strategic plan 
during the fiscal year 1999 budget process and will issue a new 
draft for additional Congressional consultation early next 
year.

[GRAPHIC] [TIFF OMITTED] T5124.001

[GRAPHIC] [TIFF OMITTED] T5124.002

[GRAPHIC] [TIFF OMITTED] T5124.003

[GRAPHIC] [TIFF OMITTED] T5124.004

[GRAPHIC] [TIFF OMITTED] T5124.005

[GRAPHIC] [TIFF OMITTED] T5124.006

[GRAPHIC] [TIFF OMITTED] T5124.007

[GRAPHIC] [TIFF OMITTED] T5124.008

[GRAPHIC] [TIFF OMITTED] T5124.009

[GRAPHIC] [TIFF OMITTED] T5124.010

[GRAPHIC] [TIFF OMITTED] T5124.011

[GRAPHIC] [TIFF OMITTED] T5124.012

[GRAPHIC] [TIFF OMITTED] T5124.013

[GRAPHIC] [TIFF OMITTED] T5124.014

[GRAPHIC] [TIFF OMITTED] T5124.015

[GRAPHIC] [TIFF OMITTED] T5124.016

[GRAPHIC] [TIFF OMITTED] T5124.017

[GRAPHIC] [TIFF OMITTED] T5124.018

[GRAPHIC] [TIFF OMITTED] T5124.019

[GRAPHIC] [TIFF OMITTED] T5124.020

[GRAPHIC] [TIFF OMITTED] T5124.021

[GRAPHIC] [TIFF OMITTED] T5124.022

[GRAPHIC] [TIFF OMITTED] T5124.023

[GRAPHIC] [TIFF OMITTED] T5124.024

[GRAPHIC] [TIFF OMITTED] T5124.025

[GRAPHIC] [TIFF OMITTED] T5124.026

[GRAPHIC] [TIFF OMITTED] T5124.027

[GRAPHIC] [TIFF OMITTED] T5124.028

[GRAPHIC] [TIFF OMITTED] T5124.029

[GRAPHIC] [TIFF OMITTED] T5124.030

[GRAPHIC] [TIFF OMITTED] T5124.031

[GRAPHIC] [TIFF OMITTED] T5124.032

[GRAPHIC] [TIFF OMITTED] T5124.033

[GRAPHIC] [TIFF OMITTED] T5124.034

[GRAPHIC] [TIFF OMITTED] T5124.035

[GRAPHIC] [TIFF OMITTED] T5124.036

[GRAPHIC] [TIFF OMITTED] T5124.037

[GRAPHIC] [TIFF OMITTED] T5124.038

[GRAPHIC] [TIFF OMITTED] T5124.039

[GRAPHIC] [TIFF OMITTED] T5124.040

[GRAPHIC] [TIFF OMITTED] T5124.041

[GRAPHIC] [TIFF OMITTED] T5124.042

[GRAPHIC] [TIFF OMITTED] T5124.043

[GRAPHIC] [TIFF OMITTED] T5124.044

[GRAPHIC] [TIFF OMITTED] T5124.045

[GRAPHIC] [TIFF OMITTED] T5124.046

[GRAPHIC] [TIFF OMITTED] T5124.047

[GRAPHIC] [TIFF OMITTED] T5124.048

[GRAPHIC] [TIFF OMITTED] T5124.049

[GRAPHIC] [TIFF OMITTED] T5124.050

[GRAPHIC] [TIFF OMITTED] T5124.051

[GRAPHIC] [TIFF OMITTED] T5124.052

[GRAPHIC] [TIFF OMITTED] T5124.053

[GRAPHIC] [TIFF OMITTED] T5124.054

[GRAPHIC] [TIFF OMITTED] T5124.055

[GRAPHIC] [TIFF OMITTED] T5124.056

[GRAPHIC] [TIFF OMITTED] T5124.057

[GRAPHIC] [TIFF OMITTED] T5124.058

[GRAPHIC] [TIFF OMITTED] T5124.059

[GRAPHIC] [TIFF OMITTED] T5124.060

[GRAPHIC] [TIFF OMITTED] T5124.061

[GRAPHIC] [TIFF OMITTED] T5124.062

[GRAPHIC] [TIFF OMITTED] T5124.063

[GRAPHIC] [TIFF OMITTED] T5124.064

[GRAPHIC] [TIFF OMITTED] T5124.065

[GRAPHIC] [TIFF OMITTED] T5124.066

[GRAPHIC] [TIFF OMITTED] T5124.067

[GRAPHIC] [TIFF OMITTED] T5124.068

[GRAPHIC] [TIFF OMITTED] T5124.069

[GRAPHIC] [TIFF OMITTED] T5124.070

[GRAPHIC] [TIFF OMITTED] T5124.071

[GRAPHIC] [TIFF OMITTED] T5124.072

[GRAPHIC] [TIFF OMITTED] T5124.073

[GRAPHIC] [TIFF OMITTED] T5124.074

[GRAPHIC] [TIFF OMITTED] T5124.075

[GRAPHIC] [TIFF OMITTED] T5124.076

[GRAPHIC] [TIFF OMITTED] T5124.077

[GRAPHIC] [TIFF OMITTED] T5124.078

[GRAPHIC] [TIFF OMITTED] T5124.079

[GRAPHIC] [TIFF OMITTED] T5124.080

[GRAPHIC] [TIFF OMITTED] T5124.081

[GRAPHIC] [TIFF OMITTED] T5124.082

[GRAPHIC] [TIFF OMITTED] T5124.083

[GRAPHIC] [TIFF OMITTED] T5124.084

[GRAPHIC] [TIFF OMITTED] T5124.085

[GRAPHIC] [TIFF OMITTED] T5124.086

[GRAPHIC] [TIFF OMITTED] T5124.087


</pre></body></html>
